<html>
<title> - ASSESSING U.S. FOREIGN POLICY PRIORITIES AND NEEDS AMIDST ECONOMIC CHALLENGES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
  ASSESSING U.S. FOREIGN POLICY PRIORITIES AND NEEDS AMIDST ECONOMIC 
                               CHALLENGES

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 1, 2011

                               __________

                           Serial No. 112-33

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
64-869                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8aedfae5cae9fff9fee2efe6faa4e9e5e7a4">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Hillary Rodham Clinton, Secretary of State, U.S. 
  Department of State............................................     9

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Committee on Foreign 
  Affairs: Prepared statement....................................     4
The Honorable Hillary Rodham Clinton: Prepared statement.........    13

                                APPENDIX

Hearing notice...................................................    72
Hearing minutes..................................................    73
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Statement...................    75
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California: Material submitted for the record.....    76
Questions submitted for the record to the Honorable Hillary 
  Rodham Clinton by the Honorable Ileana Ros-Lehtinen............    84
Written responses from the Honorable Hillary Rodham Clinton to 
  questions submitted for the record by:
  The Honorable Ileana Ros-Lehtinen..............................    93
  The Honorable Howard L. Berman, a Representative in Congress 
    from the State of California.................................   168
  The Honorable David Rivera, a Representative in Congress from 
    the State of Florida.........................................   174
  The Honorable Gregory W. Meeks, a Representative in Congress 
    from the State of New York...................................   177
  The Honorable Jeff Duncan, a Representative in Congress from 
    the State of South Carolina..................................   179
  The Honorable Russ Carnahan, a Representative in Congress from 
    the State of Missouri........................................   183
  The Honorable David Cicilline, a Representative in Congress 
    from the State of Rhode Island...............................   195
Questions submitted for the record to the Honorable Hillary 
  Rodham Clinton by:
  The Honorable Dan Burton, a Representative in Congress from the 
    State of Indiana, and chairman, Subcommittee on Europe and 
    Eurasia......................................................   201
  The Honorable Gerald E. Connolly, a Representative in Congress 
    from the Commonwealth of Virginia............................   207
  The Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Subcommittee on 
    Terrorism, Nonproliferation, and Trade.......................   208
  The Honorable Karen Bass, a Representative in Congress from the 
    State of California..........................................   209
  The Honorable Michael T. McCaul, a Representative in Congress 
    from the State of Texas......................................   212
  The Honorable Gus Bilirakis, a Representative in Congress from 
    the State of Florida.........................................   215
  The Honorable Mike Kelly, a Representative in Congress from the 
    Commonwealth of Pennsylvania.................................   218
  The Honorable Tim Griffin, a Representative in Congress from 
    the State of Arkansas........................................   220
  The Honorable Renee Ellmers, a Representative in Congress from 
    the State of North Carolina..................................   221


  ASSESSING U.S. FOREIGN POLICY PRIORITIES AND NEEDS AMIDST ECONOMIC 
                               CHALLENGES

                              ----------                              


                         TUESDAY, MARCH 1, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m. in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order.
    Madam Secretary, it is a pleasure to welcome you to our 
committee for the first time as chairman. In order to maximize 
our time for discussion, after my opening remarks and those of 
my good friend, the ranking member, Mr. Berman, I ask that you 
summarize your written testimony and then we will move directly 
into questions from members.
    Madam Speaker, we must maintain firm ties with our allies, 
and enemies must be clearly identified. I hope that this 
administration can tell who's who.
    In Lebanon, we have witnessed the conquest of the country 
by the Iran-Syria-Hezbollah axis. The U.S. should never have 
been supporting a government with Hezbollah. Now, with 
Hezbollah in control, what is the justification for continued 
U.S. taxpayer investment? In Egypt and elsewhere, successive 
U.S. administrations failed to move beyond the status quo and 
prepare for the future. We should not associate the protests in 
Jordan and Bahrain with events transpiring in Tripoli, Cairo, 
and Beirut.
    But there is one constant. We have failed to effectively 
use our resources to help build strong, accountable 
institutions that protect basic human rights. This 
administration's prior decision to cut support from pro-
democracy civil groups in Egypt and to only fund groups pre-
cleared with the Mubarak government is a mistake we must never 
repeat.
    Then there is the mistake of the Bush administration, 
continued under the current administration, to conduct business 
as usual with the Libyan regime following the lifting of U.N. 
Security Council sanctions imposed in response to Libya's 
state-sponsored attacks, which claimed the lives of many, 
including Melina Hudson and John Cummock.
    John's wife Victoria, my constituent, and Melina's father 
and aunt are in the audience today. Madam Secretary, I have a 
letter that they have written requesting yours and Director 
Mueller's help in securing information on the role of Qadhafi 
and others in attacks on Western targets in the '80s and the 
'90s.
    Some of us objected to the normalization of relations with 
the Libyan regime, raising its deplorable human rights record. 
Regrettably, Libya's deployment of fighter jets and tanks to 
murder those daring to express a desire for freedom is proof 
that the oppressors cannot be coddled or engaged.
    Then, the U.N. Human Rights Council refused to do anything 
about Libya's gross human rights abuses. On the contrary, Libya 
was elected to the Human Rights Council last year. Days ago, 
the Council was forced to act due to the Qadhafi regime's 
slaughter of hundreds of people in the streets. However, 
another U.N. entity, the Security Council, did find time just 
weeks ago to target our democratic ally, Israel. The United 
States needs to condition its funding for the U.N. on real 
reforms. Just as administration officials talk about smart 
power and smart sanctions, when it comes to the U.N., we need 
smart withholding.
    In our hemisphere, the U.S. approach is one of misplaced 
priorities. The Havana tyranny has again ramped up its assault 
against the democracy movement in Cuba, detaining dozens of 
peaceful protestors, beating mourning mother Reina Luisa 
Tamayo, and this weekend sending its shameless thugs after the 
Ladies in White. Yet the administration has repeatedly eased 
regulations on the Castro regime. Just weeks after the latest 
appeasement, the dictatorship announced its intention to seek a 
20-year prison sentence for U.S. citizen Alan Gross, whose 
trial starts on Friday.
    When it comes to those countries that do share our values 
and our priorities, there appears to be no end to the stall 
tactics and empty rhetoric. Our partners in Colombia and Panama 
have gone above and beyond meeting the politically determined 
and ever-changing benchmarks placed in the way of long-awaited 
free trade agreements. Hondurans who fought for their 
Constitution and rule of law against Mel Zelaya's attack on 
their democracy are still suffering under the veiled reprisals 
of our State Department.
    These examples crystallize the complaints that the American 
people have about foreign assistance programs. My constituents 
in letters, e-mails, and talks with me and through our new 
interactive feature on the main committee Web site, 
ForeignAffairs.house.gov, keep asking: What is the return on 
our investment?
    Rafael Santana, from Miami, whose letter was published in 
the Miami Herald on Monday, wrote,

        ``We are the most generous nation in the world and 
        foreign aid should go to those countries that are 
        friendly to us. When was the last time we heard of good 
        will toward America? The majority of us haven't--and 
        don't expect to.''

    Some attempt to obscure the facts through novel ways of 
slicing and dicing the numbers. But the budget request for 
International Affairs continues the significant increases of 
recent years. The cumulative $61.4 billion International 
Affairs request is a 42 percent increase over Fiscal Year 2008 
levels. The increases are more dramatic when we focus on the 
State Department's own salaries and operations. The $12 billion 
State Programs request is a 25 percent increase over 2010 
actual levels and a nearly 75 percent increase since 2008.
    There is also a problem of misplaced priorities. The 
administration should not propose massive increases in global 
health and climate change programs while cutting key programs 
such as the Trans-Sahara Counterterrorism Partnership and the 
Partnership for Regional East Africa Counterterrorism, 
particularly as al-Qaeda affiliates in Africa set their sights 
on American targets and American citizens are being captured 
and killed by Somali pirates.
    The safety of our men and women serving with distinction in 
Afghanistan, Madam Secretary, and the country's transition to a 
more stable and Democratic future must forever guide us. 
Pakistan must also do more to meet the pressing United States 
concerns, including the release of Raymond Davis, our detained 
American diplomat, and shifting its approach to Afghanistan, 
away from armed proxies and toward constructive and legitimate 
political partners.
    We must make those decisions in light of the unfortunate 
fiscal realities facing our Government and every American 
family.
    Those who complain about diminished levels of International 
Affairs funding need to ask themselves how much less would an 
insolvent United States of America be able to do? Our funding 
baseline has to change. The real question is not, ``Is this 
activity useful?'' but, rather, ``Is this activity so important 
that it justifies borrowing money to pay for it and further 
endangering our Nation's economy?''
    At this point, Madam Secretary, I would like to recognize 
my good friend and partner, the ranking member, for his opening 
remarks.
    Thank you.
    [The prepared statement of Chairman Ros-Lehtinen follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Berman. Well, thank you very much, Madam Chairman.
    Before I start my opening remarks, I would just like to 
acknowledge the tremendous work of Rich Verma, sitting behind 
the Secretary. He is the Assistant Secretary of State for 
Legislative Affairs, and he will be leaving the State 
Department shortly. He was a tireless advocate for the 
Secretary's agenda and the administration's agenda and for 
issues of tremendous interest to this committee, including Iran 
sanctions. I want to thank him for his service and wish him all 
the best in his next endeavor.
    Madam Secretary, thank you very much for being with us here 
today. Geneva yesterday, Washington today. It sounds like just 
a repeat of your regular schedule. We appreciate this 
opportunity to discuss the International Affairs budget and the 
various policy initiatives you have championed as Secretary of 
State.
    Madam Secretary, in these challenging economic times it is 
critical that we make the most of every taxpayer dollar; and 
although the International Affairs budget makes up only 1 
percent of the entire Federal budget, it funds some of the most 
essential elements of our national security. I know you are 
committed to getting the most bang for the buck.
    In the first Quadrennial Diplomacy and Development Review, 
completed last December under your leadership, the State 
Department places a welcome emphasis on improving monetary 
evaluation of programs, increasing transparency of aid 
projects, and on aligning priorities and resources.
    With all due respect to my colleagues on the other side of 
the aisle, the responsible approach taken in the QDDR to 
achieve cost savings stands in stark contrast to the Republican 
appropriations bill passed by the House 2 weeks ago. The 
reckless cuts in that legislation weren't chosen because they 
looked at programs and said, here's something that is not 
working, or here's something we don't need to do. No, the total 
level of reduction was purely arbitrary, plucked out of a hat, 
and totally unrelated to any thoughtful calculation of what was 
actually needed and how much it should cost.
    Their bill isn't about making government more cost 
effective or more efficient. It doesn't promote the kind of 
reforms and streamlining needed to ensure that our aid reaches 
those who need it most in the most efficient possible manner. 
It is simply a slash-and-burn process, with no consideration 
for all the critically important work that is being destroyed 
or how it undermines our national security.
    The bill savages nearly every program that protects the 
poorest and most vulnerable people: Humanitarian assistance for 
victims of natural disasters, Pakistan, Haiti--I could go on 
and on--slashed by 50 percent, massive cuts in refugee aid. 
Look what is going on in Tunisia and Egypt right now, Libya. 
Food aid. Water and sanitation. Programs to fight AIDS, 
malaria, and tuberculosis. Meanwhile, funding for the diplomats 
and aid workers that carry out these programs is also slashed.
    If there is anything we have learned over the past few 
years, it ought to be that we don't just hand over money to 
contractors and other governments without adequate oversight 
and accountability.
    Supporters of the Republican bill overlooked two critical 
facts.
    First, as you, Madam Secretary, Secretary Gates, and our 
senior military leadership have said repeatedly, America's 
national security depends not only on our men and women in 
uniform but also on the diplomats and aid workers who risk 
their lives every day to support America's interests abroad. In 
fact, 15 percent of the Fiscal Year 2012 International Affairs 
budget request is dedicated to supporting critical U.S. efforts 
in the frontline states of Iraq, Afghanistan, and Pakistan. In 
the face of mounting deficits here at home, it is important to 
remember that these civilian efforts are much more cost 
effective than deploying our military.
    And, second, aid to others isn't a gift. The United States 
provides foreign assistance because it serves our interests. 
Helping countries become more democratic, more stable, more 
capable of defending themselves, and better at pulling 
themselves out of poverty is just as important for us, our 
national security, and our economic prosperity as it is for 
them. The more we slash our foreign assistance, the more we 
cede the playing field to China, which is more than happy to 
fill the vacuum in Africa, Latin American, and Asia.
    Madam Secretary, over the past month we have witnessed a 
stirring series of popular revolutions across the greater 
Middle East. As Americans, we are inspired to see the people of 
Tunisia, Egypt, Libya, and other countries rise up to fight for 
the universal values that all of us hold dear: Freedom, 
democracy, and human rights. We all hope that the upheaval in 
the Middle East will lead to a brighter future for the people 
of the region, but we also must guard against the possibility 
that these movements for change will be hijacked by those 
determined to restore an autocratic form of government or by 
forces hostile to the United States and our allies in the 
region.
    Madam Secretary, as we all know, the Iranian regime is 
continuing its efforts to develop a nuclear weapons capability, 
and this remains one of the most pressing foreign policy 
challenges facing our Nation and the international community. 
When you testified before this body 2 years ago, you pledged 
that the administration would pursue crippling sanctions 
against Iran; and we have certainly moved in that direction. 
Last year, the Obama administration had unprecedented success 
in building the diplomatic support for tougher sanctions on 
Iran at the U.N. Security Council. Congress followed by passing 
the comprehensive Iran Sanctions Accountability and Divestment 
Act, the most rigorous sanctions ever imposed on Iran. That 
legislation, which was signed into law 8 months ago, helped 
galvanize international opinion on Iran's nuclear weapons 
program and laid the groundwork for other countries to impose 
their own national sanctions.
    Madam Secretary, we appreciate the fact that you have 
pursued the Iranian nuclear threat with great urgency and look 
forward to working with you to ensure that our sanctions laws 
are fully implemented, including against Chinese firms that, as 
you have indicated, continue to engage in sanctionable 
activity.
    My concern is this. We have not yet sanctioned any non-
Iranian bank or energy company, even though we know several are 
engaged in sanctionable activity. Companies need to know that 
there are consequences for these types of activities. So far, 
no company has any reason to think there are such consequences.
    Finally, I do want to express my appreciation for the 
administration's recent veto of a Security Council resolution 
targeted at Israel, which was a powerful reaffirmation of your 
support for Israel and for direct Israeli-Palestinian 
negotiations leading to two states living side by side and a 
permanent Israeli-Palestinian peace.
    Once again, it is a pleasure to have you with us today, and 
I look forward to your presentation.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Berman.
    Madam Secretary, Mr. Berman and I are honored to welcome 
you before our committee today.
    The Honorable Hillary Rodham Clinton has served as the 67th 
Secretary of State for the United States since January 21, 
2009, the latest chapter in her four-decade career of public 
service. She has served previously as a United States Senator 
from the State of New York, as First Lady of the United States 
and of the State of Arkansas, and as an attorney and law 
professor.
    Madam Secretary, without objection, your full written 
statement will be made part of the record. If you would be so 
kind as to summarize your written remarks, we can then move 
directly to the question and answer period under the 5-minute 
rule in the hopes of getting all our members to have a question 
before you depart.
    Madam Secretary, the floor is yours. Welcome.

STATEMENT OF THE HONORABLE HILLARY RODHAM CLINTON, SECRETARY OF 
                STATE, U.S. DEPARTMENT OF STATE

    Secretary Clinton. Thank you very much, Madam Chairman, and 
congratulations on your assuming this post. I want to thank you 
publicly for traveling to Haiti with our team on behalf of the 
efforts that the United States is pursuing there. I also want 
to thank the ranking member for his leadership and support over 
these last years.
    Late last night, I came back from around-the-clock meetings 
in Geneva to discuss the unfolding events in Libya. I would 
like to begin by offering a quick update.
    We have joined the Libyan people in demanding that Qadhafi 
must go--now, without further violence or delay--and we are 
working to translate the world's outrage into action and 
results.
    Marathon diplomacy at the United Nations and with allies 
has yielded quick, aggressive steps to pressure leaders. USAID 
is focused on Libya's food and medical supplies and is 
dispatching two expert humanitarian teams to helping those 
fleeing the violence and who are moving into Tunisia and Egypt, 
which is posing tremendous burdens on those two countries. Our 
combatant commands are positioning assets to prepare to support 
these critical civilian humanitarian missions, and we are 
taking no options off the table so long as the Libyan 
Government continues to turn it is guns on its own people.
    The entire region is changing, and a strong and strategic 
American response is essential. In the years ahead, Libya could 
become a peaceful democracy, or it could face protracted civil 
war, or it could descend into chaos. The stakes are high. This 
is an unfolding example of using the combined assets of smart 
power, diplomacy, development, and defense to protect American 
security and interests and advance our values. This integrated 
approach is not just how we respond to the crisis of the 
moment. It is the most effective--and most cost-effective--way 
to sustain and advance our security across the world, and it is 
only possible with a budget that supports all the tools in our 
national security arsenal, which is what we are here to 
discuss.
    The American people are justifiably concerned about our 
national debt. I share that concern. But they also want 
responsible investments in our future that will make us 
stronger at home and continuing our leadership abroad. Just 2 
years after President Obama and I first asked you to renew our 
investment in development and diplomacy, we are already seeing 
tangible returns for our national security.
    In Iraq, almost 100,000 troops have come home, and 
civilians are poised to keep the peace. In Afghanistan, 
integrated military and civilian surges have helped set the 
stage for our diplomatic surge to support Afghan-led 
reconciliation that could end the conflict and put al-Qaeda on 
the run. We have imposed the toughest-ever sanctions to rein in 
Iran's nuclear ambitions. We have reengaged as a leader in the 
Pacific and in our own hemisphere. We have signed trade deals 
to promote American jobs and nuclear weapons treaties to 
protect our people. We have worked with northern and southern 
Sudanese to achieve a peaceful referendum and prevent a return 
to civil war. We are working to open up political systems, 
economies, and societies at a remarkable moment in the history 
of the Middle East and to support peaceful, orderly, 
irreversible democratic transitions in Egypt and Tunisia.
    Our progress is significant, but our work is far from over. 
These missions are vital to our national security, and I 
believe with all my heart now would be the wrong time to pull 
back.
    The Fiscal Year 2012 budget we discuss today will allow us 
to keep pressing ahead. It is a lean budget for lean times. I 
did launch the first-ever Quadrennial Diplomacy and Development 
Review to help us maximize the impact of every dollar we spend. 
We scrubbed this budget and made painful but responsible cuts. 
We cut economic assistance to Central and Eastern Europe, the 
Caucasus, and Central Asia by 15 percent. We cut development 
assistance to over 20 countries by more than half.
    And this year, for the first time, our request is divided 
into two parts. Our core budget request of $47 billion supports 
programs and partnerships in every country but North Korea. It 
is essentially flat from 2010 levels.
    The second part of our request funds the extraordinary, 
temporary portion of our war effort the same way that the 
Pentagon's request is funded, in a separate overseas 
contingency operations account, known as OCO. Instead of 
covering our war expenses through supplemental appropriations, 
we are now taking a more transparent approach that reflects our 
fully integrated civilian military efforts on the ground. Our 
share of the President's $126 billion request for these 
exceptional wartime costs in the frontline states is $8.7 
billion.
    Let me walk you through a few of our key investments.
    First, this budget funds vital civilian missions in 
Afghanistan, Pakistan, and Iraq. In Afghanistan and Pakistan, 
al-Qaeda is under pressure as never before. Alongside our 
military offensive, we are engaged in a major civilian effort 
that is helping to build up the governments, economies, and 
civil societies of both countries and undercut the insurgency. 
These two surges, the military and civilian surge, set the 
stage for a third--a diplomatic push in support of an Afghan 
process to split the Taliban from al-Qaeda, bring the conflict 
in an end, and help to stabilize the region.
    Our military commanders are emphatic they cannot succeed 
without a strong civilian partner. Retreating from our civilian 
surge in Afghanistan with our troops still in the field would 
be a grave mistake.
    Equally important is our assistance to Pakistan, a nuclear-
armed nation with strong ties and interests in Afghanistan. We 
are working to deepen our partnership and keep it focused on 
addressing Pakistan's political and economic challenges as well 
as our shared threats.
    As to Iraq, after so much sacrifice we do have a chance to 
help the Iraqi people build a stable democratic country in the 
heart of the Middle East. As troops come home, our civilians 
are taking the lead, helping Iraqis resolve conflicts 
peacefully and training their police.
    Shifting responsibilities from soldiers to civilians 
actually saves taxpayers a great deal of money. For example, 
the military's total OCO request worldwide will drop by $45 
billion from 2010 as our troops come home. Our costs, the State 
Department and USAID, will increase by less than $4 billion. 
Every business owner I know would gladly invest $4 to save $45.
    Second, even as our civilians help bring today's wars to a 
close, we are working to prevent tomorrow's. This budget 
devotes over $4 billion to sustaining a strong U.S. presence in 
volatile places where our security and interests are at stake.
    In Yemen, it provides security, development, and 
humanitarian assistance to deny al-Qaeda in the Arabian 
Peninsula a safe haven and promote the kind of stability that 
can lead to a better outcome than what might otherwise occur. 
It focuses on these same goals in Somalia. It helps northern 
and southern Sudan chart a peaceful future. It helps Haiti 
rebuild. And it proposes a new Global Security Contingency Fund 
that would pool resources and expertise with the Defense 
Department to respond quickly as new challenges emerge.
    This budget also strengthens our allies and partners. It 
trains Mexican police to take on violent cartels and secure our 
southern border. It provides nearly $3.1 billion for Israel and 
supports Jordan and the Palestinians. It helps Egypt and 
Tunisia build stable and credible democracy, and it supports 
security assistance to over 130 nations.
    Now, some may say, Well, what does this get us in America? 
Let me give you one example. Over the years, these funds have 
created valuable ties with foreign militaries and trained in 
Egypt a generation of officers who refused to fire on their own 
people. And that was not something that happened overnight. It 
was something that happened because of relationships that had 
been built over decades. Across the board, we are working to 
ensure that all who share the benefits of our spending also 
share the burdens of addressing common challenges.
    Third, we are making targeted investments in human 
security. We have focused on hunger, disease, and climate 
change and humanitarian emergencies because these challenges 
not only threaten the security of individuals, they are the 
seeds of future conflicts. If we want to lighten the burden on 
future generations, we have to make investments that make our 
world more secure for them.
    Our largest investment is in global health programs, 
including those launched by former President George W. Bush. 
These programs stabilize entire societies that have been and 
are being devastated by HIV, malaria, and other diseases. They 
save the lives of mothers and children and halt the spread of 
deadly diseases.
    Global food prices are approaching an all-time high. Three 
years ago, this led to protests and riots in dozens of 
countries. Food security is a cornerstone of global stability, 
and we are helping farmers grow more food, drive economic 
growth, and turn aid recipients into trading partners.
    Climate change threatens food security, human security, and 
national security. Our budget builds resilience against 
droughts, floods, and other weather disasters, promotes clean 
energy and preserves tropical forests. It also gives us 
leverage to persuade China, India, and other nations to do 
their essential part in meeting this urgent threat.
    Fourth, we are committed to making our foreign policy a 
force for domestic economic renewal and creating jobs here at 
home. We are working aggressively to promote sustained economic 
growth, level the playing fields, and open markets. To give 
just one example, the eight Open Skies Agreements that we have 
signed over the last 2 years will open dozens of new markets to 
American carriers. The Miami International Airport, Madam 
Chairman, which supports nearly 300 jobs, including many in 
your district, will see a great deal of new business thanks to 
agreements with Miami's top trading partners, Brazil and 
Colombia.
    Fifth and finally, this budget funds the people and the 
platforms that make possible everything I have described. It 
allows us to sustain diplomatic relations with 19 countries. It 
funds political officers who are literally right now out 
working to diffuse political crises and promote our values, 
development officers who are spreading opportunity and 
promoting stability, and economic officers who wake up every 
day thinking about how to help put Americans back to work.
    Several of you have already asked our Department about the 
safety of your constituents in the Middle East. Well, this 
budget also helps fund the consular officers, who evacuated 
over 2,600 people thus far from Egypt and Libya and nearly 
17,000 from Haiti. They issued 14 million passports last year 
and served as our first line of defense against would-be 
terrorists seeking visas to enter our country.
    I would like to say just a few words about the funding for 
the rest of 2011. As I told Speaker Boehner, Chairman Rogers, 
and many others, the 16-percent cut for State and USAID that 
passed the House last month would be devastating for our 
national security. It would force us to scale back dramatically 
on critical missions in Iraq, Afghanistan, and Pakistan. And as 
Secretary Gates, Admiral Mullen, and General Petraeus have all 
emphasized to the Congress, we need a fully engaged and fully 
funded national security team, and that includes State and 
USAID.
    Now, there have always been moments of temptation in our 
country to resist obligations beyond our borders. But each time 
we have shrunk from global leadership, events have summoned us 
back, often cruelly, to reality. We saved money in the short 
term when we walked away from Afghanistan after the Cold War, 
but those savings came at an unspeakable cost--one we are still 
paying 10 years later, in money and lives.
    Generations of Americans, including my own, have grown up 
successful and safe because we chose to lead the world in 
tackling the greatest challenges. We invested the resources to 
build up democratic allies and vibrant trading partners; and we 
did not shy away from defending our values, promoting our 
interests, and seizing the opportunities of each new era.
    I have now traveled more than any Secretary of State in the 
last 2 years, and I can tell you from firsthand experience the 
world has never been in greater need of the qualities that 
distinguish us--our openness and innovation, our determination, 
our devotion to universal values. Everywhere I travel, I see 
people looking to us for leadership. Sometimes I see them after 
they have condemned us publicly on their television channels 
and then come to us privately and say, We can't do this without 
America. This is a source of great strength, a point of pride, 
and I believe an unbelievable opportunity for the American 
people. But it is an achievement. It is not a birthright. It 
requires resolve, and it requires resources.
    I look forward to working closely together with you to do 
what is necessary to keep our country safe and maintain 
American leadership in this fast-changing world.
    Thank you, Madam Chairman.
    [The prepared statement of Secretary Clinton follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you, Madam Secretary.
    I will begin with my questions.
    Madam Secretary, former Libyan officials are coming forward 
claiming to have proof that Qadhafi personally ordered the 
attack on Pan Am 103 over Lockerbie. What is the Obama 
administration doing to depose and secure proof for the 
criminal prosecution of Qadhafi and his henchmen? Also, will 
the United States support the implementation of a no-fly zone 
over Libya? And when will the United States expand the asset 
freeze to include those who have been identified on the United 
Nation's sanctions list? And, also, when will we institute a 
travel ban? What is the role of our U.S. military in the 
region? Is it humanitarian support along with our allies, and 
limited to that?
    On Iran, Madam Secretary, I remain concerned that the 
Department is not fully implementing the Iran sanctions law. 
Can you comment on the status of the five companies that the 
administration waived sanctions against through the utilization 
of a special rule in CISADA based on their pledge to cease all 
investment in the Iranian energy sector? How many 
investigations are currently open? And will you commit to us to 
brief the committee or staff on all investigations that the 
administration is undertaking on Iran sanctions law?
    I ask for U.S. protection for the many residents of Camp 
Ashraf, many of whose family members are here today in the 
audience and are concerned about their relatives.
    Thank you, Madam Secretary.
    Secretary Clinton. Thank you very much, Madam Chairman.
    Let me begin by saying that, when it comes to Libya, the 
United States has led the way in imposing very strict sanctions 
that are finding assets and preventing those assets from going 
to the Qadhafi family or the Qadhafi leadership. We have also 
worked closely with the European Union and member countries, 
because they also have many assets from the Libyans that they 
are tracking and freezing.
    We also, as you know, passed in a very quick, aggressive 
manner a strong Security Council resolution on Saturday, which 
gets the entire world behind targeted sanctions, arms embargo, 
humanitarian assistance; and yesterday in Geneva I had the 
opportunity to discuss further what more could be and needed to 
be done. There will be additional announcements coming from 
other countries, coming from the EU; and the United States 
continues to look at every single lever it can use against the 
Qadhafi regime.
    We are well aware of the ongoing efforts by Colonel Qadhafi 
to defend the area of Tripoli and a few other places that he 
continues to hold. The opposition forces have been working to 
create more of a military presence so that they can not only 
defend the places that they have already taken over but even 
try to take Tripoli away from Colonel Qadhafi.
    We are also very conscious of the desire by the Libyan 
opposition forces that they be seen as doing this by themselves 
on behalf of the Libyan people, that there not be outside 
intervention by any external force because they want this to 
have been their accomplishment. We respect that. But we have 
also with our NATO allies and with the Pentagon begun to look 
at potential planning preparedness in the event that we feel it 
is necessary for both humanitarian and other reasons that there 
would have to be actions taken. One of those actions that is 
under review is a no-fly zone. There are arguments that would 
favor it, questions that would be raised about it, but it is 
under active consideration.
    With respect to Iran--and I know the time is so short and I 
want to be able to supplement any of these questions with 
written material--we are seeing the difference that coordinated 
sanctions can make. It is not only what the United States did 
with the cooperation and leadership of Congress with the CISADA 
legislation that added to the Iran Sanctions Act, gave the 
United States many more tools, but it is also because of the 
international cooperation through the United Nations Security 
Council and through additional add-on sanctions from many of 
our partners, including the EU, Japan, and others.
    Because when you are trying to sanction Iran, no matter how 
powerful the United States is economically and no matter how 
much we can do on our own, it is imperative that we get the 
international community to support it. Otherwise, there is just 
too much leakage. We have really limited that. I feel strongly 
that we are making an impact on that.
    Chairman Ros-Lehtinen. Thank you, Madam Secretary. I 
respectfully request written responses as you offered to the 
questions that you were not able to answer because I asked so 
many, including the deposition of the Libyan officials, which 
is so timely.
    My good friend, the ranking member, Mr. Berman.
    Mr. Berman. Thank you very much, Madam Chairman.
    I do want to commend to my colleagues on the committee the 
speech that Secretary Clinton gave, in addition to her 
excellent testimony today, but yesterday going to the Human 
Rights Council, where she discussed Libya, Iran, and other 
issues. It is really quite a remarkable presentation, 
particularly pointing out the hypocrisy of Iran's condemnations 
of violence in Libya and what they do to their own people and 
protestors in Iran.
    I would like to try to get into two issues in this short 
time. One, the Israeli-Palestinian process. And I ask that 
because I struggle in my own mind with the right approach at 
this particular point. Has the emergence of protest movements 
throughout the Arab world altered the dynamics of the Israeli-
Palestinian peacemaking?
    Given Egypt's preoccupations with its internal issues, I 
assume Egypt in the immediate future is not going to be very 
involved in Israeli-Palestinian diplomacy. How important is the 
removal of Egypt from the peace process equation? Is this a 
time when we should be pushing forward with peace efforts or 
should we wait for the regional dust to settle--sort of a bad 
metaphor, I guess, here--before making another push? What do 
you anticipate from the next Quartet meeting, which as I 
understand is likely to take place this month?
    And I have one other question after that.
    Secretary Clinton. Well, thank you very much, Congressman 
Berman.
    We believe that a continuing effort on behalf of the two-
state solution is first and foremost in Israel's interest and, 
in addition to that, in the interest of presenting a very 
affirmative effort in the midst of all of this turmoil and 
change. So our work continues.
    We understand the changed landscape very well. One thing 
that both the Israelis and the Palestinians depended on was 
Egypt's support for Camp David, Egypt's support for the peace 
process. I was pleased that the Supreme Council of the Armed 
Forces in one of its earliest actions declared that it would 
respect the Camp David Accords. That was a very important 
message. We have made it clear to our Egyptian counterparts 
that we expect that, and we will do everything that we can to 
support it.
    I think it is fair to ask, given what is going on in the 
region, what is the chance for any kind of break-through or 
resolution of these ongoing matters. We know that it is 
difficult at any time, but we believe that this is an 
opportunity for Israel. There was a speech that Prime Minister 
Netanyahu gave yesterday that is reported in our press today in 
which he says he is well aware of the growing isolation of 
Israel in the international community. That is not good for 
Israel. That is not good for Israel's economy. That is not good 
for Israel's position and leadership.
    So I know that the Prime Minister recognizes that we have 
some very tough decisions ahead of us. So we work extremely 
closely with the Israeli Government, and we will continue to do 
so. As you and others have noted, the Security Council of the 
United Nations is not the place for these kinds of 
negotiations, but trying to get the parties back to direct 
negotiations remains our highest priority.
    Mr. Berman. Thank you very much.
    Across the Middle East and North Africa, as we have all 
noted, we are witnessing a transformational moment. These 
countries will need external support as they undertake 
successful transitions to democratic governments. Will the 
United States be able to provide sufficient support to 
transitional governments in Egypt and Tunisia and be prepared 
to assist in other countries as needed? We look at what is 
going on in Libya, Bahrain, Jordan, and Yemen, and are we going 
to keep in place a current policy that restricts USAID from 
providing democracy and governance support to NGOs that are not 
registered under the Egyptian NGO law?
    Secretary Clinton. Well, first, Congressman Berman, we are 
going to do everything we can to support this transition to 
democracy that is under way. Each country is different; and, 
very candidly, each country wants different things from us. 
They want either economic aid or they want the full menu of 
support on politics, governance, human rights, and the like. It 
is our intention, as we have already communicated with teams 
that we have sent out. Under Secretary Bill Burns has just 
finished an intensive tour of the region, talking to the 
leadership in the key countries, that we will stand ready, as 
we have already announced, with $150 million of reprogrammed 
money in Egypt, for example. We are trying to better coordinate 
with our European and other partners around the world so that 
we don't duplicate what is being done.
    But with respect to the question about getting money into 
certain organizations and individuals----
    Chairman Ros-Lehtinen. Madam Secretary, I am going to be a 
little ruthless, because we want to get all our members in. 
Thank you. I know my good friend understands.
    I am pleased to yield 5 minutes to the chairman of the 
Subcommittee on Africa, Global Health, and Human Rights, Chris 
Smith of New Jersey.
    Mr. Smith. Thank you, Madam Chair.
    Madam Secretary, welcome to the committee.
    I just returned from visiting our friend and ally, Japan, 
where I spoke with members of the Foreign Affairs, Ministry of 
Justice, and the Diet, regarding the fact that Japan has become 
a destination country, a haven, for international child 
abduction. I want to note parenthetically our Foreign Service 
Officers were extremely competent, as well as our Consul 
General, and empathetic.
    As you know, there are at least 171 abducted children and 
131 brokenhearted parents who are worried sick and have no 
access in most cases to even see their children. All of us, of 
course, want Japan to sign the Hague Convention on the Civil 
Aspects of International Child Abduction. But, as you know, 
that treaty will not solve the current cases, and they stand a 
great risk of being left behind a second time.
    My question is, what is the administration's plan to 
resolve the current cases? On at least five occasions President 
Obama has met with both Prime Minister Kant and Hetoyama. Did 
he personally raise the issue of those children and their left-
behind parents?
    Secondly, I would like to ask you, if you would, since 
1979, brothers and sisters have been illegal in China as part 
of the barbaric one-child-per-couple policy. For over 30 years, 
the U.N. Population Fund has vigorously supported, funded, 
defended, promoted, and even celebrated these massive crimes 
against humanity. The facts are these--and they are 
uncontested--any Chinese woman, Tibetan woman, or Uighur mother 
without a birth permit is put under coercive pressure to abort; 
if need be, physically forced to do so. All unwed moms are 
compelled to abort their child. And in what can only be 
described as a search-and-destroy mission, disabled children 
are aborted as part of a nationwide eugenics program. Each day, 
Chinese family planning cadres impose huge compensation fees on 
any woman who lacks permission to give birth or somehow evades 
detection.
    There is no doubt that the UNFPA-supported one-child-per-
couple policy in China has led to the worst gender disparity in 
any nation in human history. Where are the missing girls? Dead. 
Aborted because they were female. Systematically destroyed over 
30 years by sex selection abortion. Today, there are as many as 
100 million missing girls in China--gendercide, the evil twin 
of genocide.
    The societal implications of the UNFPA-supported one-child-
per-couple policy are absolutely staggering. According to the 
World Health Organization, about 500 Chinese women commit 
suicide every day in China. China has become a magnet for sex 
trafficking, in large measure due to the missing girls of 
China.
    In light of this massive ongoing crime against women, I 
would like respectfully to know if you or the President raised 
directly in a face-to-face manner the issue of forced abortion 
in China when President Hu Jintao was in Washington.
    Secretary Clinton. Well, Congressman, let me start with 
your visit to Japan and thank you for bringing greater 
visibility to this very painful problem that I am deeply 
concerned about.
    In fact, I, for the first time, created in the Department 
the position of Special Adviser on Children's Issues. It is 
something that I have worked on for my entire adult life, and 
we are actively engaging foreign governments to go ahead and 
join the Hague Conventions both on child abduction and on 
adoption. And I have raised it in every meeting that I have had 
with my Japanese counterparts--and I have had many Japanese 
counterparts because the government has changed in the 2 years 
I have been involved. And I know the President has also raised 
it.
    I appreciate your going to Japan, and I thank you for the 
kind words about the consular affairs officers there, because 
this is at the highest priority level in the administration.
    It is not only Japan. But Japan, unfortunately, has many 
more of these cases. We are also concerned about South Korea 
and many other countries in Asia. And in fact our Special 
Adviser hosted a meeting for all of our chiefs of mission from 
Asian countries, including Bangladesh, China, Japan, Laos, 
Nepal, the Philippines, South Korea, and Timor to encourage 
that this be put on the top of the list.
    With respect to the pending cases, it is my belief that if 
we can get the conventions approved, we will have a stronger 
argument on the pending cases. I think that there will be a 
recognition that Japanese society has changed its views about 
how these cases should be handled; and I think that will open 
more possibilities for the families that are, unfortunately, 
suffering from the abduction of their children.
    With respect to China, its one-child policy, its forced 
sterilization, its forced abortion----
    Chairman Ros-Lehtinen. I am sorry, Madam Secretary. Thank 
you so much.
    Mr. Ackerman, the ranking member on the Subcommittee on the 
Middle East and South Asia, is recognized for 5 minutes.
    Mr. Ackerman. Just when it was getting good.
    Madam Secretary, it seems like just yesterday that a 
faceless, frustrated fruit vendor devoid of a future set 
himself afire and now tomorrow ain't what it used to be. 
Certainly not for millions of people in the Middle East, 
certainly not for most of the rest of the world. We have seen 
amazing things happen and taking place--things that we didn't 
necessarily anticipate.
    Others are watching it carefully as well. We see people 
demonstrating in the streets in countries which, to our 
amazement, are not holding up signs that say death to America 
or death to Israel or death to anybody else there. They are 
raising their own flags proudly, without trampling or burning 
ours. They are holding up signs--signs that are in English.
    You referred to meeting with people who made statements on 
TV and told you different things. These are people who are--
publicly, their prayers may be going upward, but their hopes 
and dreams are directed to us. They are talking to us in our 
language. It is fascinating.
    We have to have a plan. They are looking westward. Others 
have been caught flat-footed, as well as have we. We see a 
young man who was one of the leaders in Egypt, an Islamic but 
secular young man, when asked who he wants to meet, he doesn't 
say Muhammad, the Prophet. He says, ``Mark Zuckerberg, the 
Jew.''
    There is an opportunity here that we have never sensed. 
This is a new generation of people. People have not been sent 
out into the streets by their parents to die, but parents are 
willing to die for the next generation. They have dreams, and 
they are looking to us to help them.
    What are we going to do? The opportunity is here. Why don't 
we come up with something out of the box, something creative? 
Pick 500 of the finest young men and women from some of our 
business schools, give them each $10,000. Maybe the Israelis 
will do the same. Let them start businesses with these young 
people. Let them work together. Let them find their own future. 
Let them find the way that they have indicated in the streets 
in which they are demonstrating that they want to go.
    This is a new direction. Let's not wring our hands and say, 
Oh, my God, others are going to take advantage. The future 
isn't there for us to react to. The future is to be made. Do we 
have a plan?
    Secretary Clinton. Well, Congressman, we do. We have lots 
of plans. I am very excited by your idea, and I would welcome 
every member of this committee to offer ideas that would give 
us additional ways of interacting with the--particularly young 
people who are at the base of these transformational movements.
    Let me just say three quick things. We do have a lot of 
ongoing efforts that have been funded by this Congress over the 
last many years for entrepreneurial training. The President had 
an entrepreneurial conference last year, where we brought 
people from Muslim majority countries. I run into them all the 
time as I am traveling in the region. We have a Web site that 
keeps them in contact that helps to mentor them. We can take 
that and build on it and make it even greater.
    We have a lot of the MEPI programs and the so-called NERD 
programs, the Near-East programs, that have played a major role 
in bringing a lot of these young people to the United States on 
international visitors programs, on reaching out to them where 
they were in their own countries. We have to continue that. 
This is a labor-intensive, person-by-person kind of outreach 
program; and it is one of our hopes that we will get the 
resources to do that.
    We have increased dramatically what I call 21st century 
statecraft so that we have a social network connections system 
where we are talking to people in Arabic and Farsi, never done 
by our Department before; and I have empowered a lot of people 
to go and get this under way and be connected to their 
counterparts around the world.
    We do have to be conscious and aware of what people want 
from us and what they don't want from us. And, again, that is 
evolving. So our Embassy and Bill Burns and others who have 
been visiting have been meeting with representative groups of 
young people who come from the entire political spectrum 
because we do not want to make the mistake of not including in 
our dialogs those with whom we have some difficulties because 
we want them also to feel that they can realize democratic 
aspirations, which is more than just having an election.
    So there is a lot to be done, and I think your idea is a 
very good one, and I will follow up on that, Congressman.
    Mr. Ackerman. Thank you. I am glad you are there.
    Chairman Ros-Lehtinen. Thank you, Madam Secretary.
    Mr. Burton of Indiana, subcommittee chair on Europe and 
Eurasia, is recognized for 5 minutes.
    Mr. Burton. Madam Secretary, we take an oath of office when 
we become Congressmen and you, as Secretary of State, to 
protect the United States from enemies both domestic and 
foreign. One of the big concerns that I have is our dependence 
on foreign energy. Right now, we import about 65 percent of our 
energy from outside the United States. When we had the oil 
embargo back in 1972, the early '70s, we imported about 28 
percent. So we are importing more than double the amount of 
energy we did back then.
    The concern I have is the unrest in Libya, in Egypt. If you 
look all the way across the northern tier of Africa and into 
the Persian Gulf, you will see that the potential for unrest is 
really, really severe. And I know you are doing your best. But, 
nevertheless, there is still that problem. If the Straits of 
Hormuz is bottled up, if the Persian Gulf is bottled up, if 
they do something in the Suez Canal, we could lose at least 30 
percent of our energy. We are dependent on that part of the 
world.
    Now, this country has not moved toward energy independence 
at all in the last 40 years. We were importing 28 percent back 
in 1970, 1972, and now it is 65 percent. Our dependency has 
continued on. And we have said we want energy independence.
    T. Boone Pickens was in to see me a couple of weeks ago, 
and I have talked to others that say we have the ability to 
become energy independent if we really want to do it. But 
because of environmental concerns, we are not moving. We are 
not drilling off the Continental Shelf. We are not drilling in 
the Gulf of Mexico. We are not drilling in the ANWR. We have 
got millions and maybe trillions of coal shale that can be 
converted into oil, and we are not doing a darn thing about it. 
We are increasing and continuing to depend on foreign sources 
of energy.
    This administration is doing absolutely nothing to deal 
with it. As a matter of fact, they are impeding our ability to 
become energy independent. Now we have got to do something 
about that.
    If we have everything go to hell over in the Middle East 
and if our good friend in Venezuela, Mr. Chavez, who is working 
with Tehran right now--they have flights going back and forth 
every week--if they decide to put the kibosh on us, we are 
really in trouble. Can you imagine what it would be like to 
lose 30 to 40 percent of our energy from foreign sources 
because we are not drilling and getting energy right here in 
the United States?
    So my question very simply is this. Why is this 
administration--and you as Secretary of State are one of the 
leaders who is supposed to make sure that we are protected from 
enemies, both domestic and foreign--and right now, you know 
because you have been over the problems that we have in the 
entire Middle East. You know of the problems that we have in 
Venezuela. You know of all these problems, and you know of our 
increased dependence on foreign energy. Why is it? And can you 
take a message back to the President and just say, Look, it is 
time to get on with it. We need to do what is necessary to 
become energy independent.
    And the experts with whom I have talked--and I have talked 
to many of them--tell us we can become energy independent in 
the next decade if we really want to. As a matter of fact, T. 
Boone Pickens said if we do one thing, and that is convert our 
18-wheel tractor-trailer units to natural gas, we could cut our 
dependence on foreign oil by 50 percent in the next decade; 
that one thing, and we are not doing a thing about it.
    And this administration, in my opinion, is being derelict 
in its responsibility, and you as Secretary of State, I implore 
you to go back to the President and say, This is just not just 
an economic issue; this is a national defense issue that we are 
not doing a thing about and we need to get on with it.
    And I would like to have your response.
    Secretary Clinton. Well, Congressman, I actually agree that 
our energy dependence is a national security issue. When I 
served on the Armed Services Committee, I authored some of the 
earliest legislation so that we would begin to look at 
alternatives, that we could begin to use the large Defense 
Department budget to try to explore what could be done.
    I don't think there is any one answer, however. I do 
believe--and I followed up on that by having the first-ever 
international energy coordinator. In the QDDR, I recommended 
that we have a whole bureau devoted to energy because I do see 
it as you do, as a critical part of our national defense.
    I would take issue, as you might expect me to, with respect 
to your characterization of what this administration has done. 
There is a lot that can be done right now that would make us 
more energy efficient. There were a lot of programs and a lot 
of funding to move toward energy efficiency, which every expert 
I talk to, says can have a dramatic impact on reducing our use 
of foreign and domestic sources. That doesn't mean that we 
don't need to look carefully at what else we can do in terms of 
drilling and the like. That is a longer-term prospect.
    I am worried about right now, and I think some of the 
short-term decisions that are being made by the Congress 
undermine our march toward energy independence, and I think we 
have to look at a whole menu of what needs to be done.
    Chairman Ros-Lehtinen. Thank you so much. Mr. Faleomavaega, 
the ranking member on the Subcommittee on Asia and the Pacific.
    Mr. Faleomavaega. Thank you, Madam Chair.
    Madam Secretary, it is always a pleasure and a personal 
honor for me to welcome you before this committee. I am sure 
our Nation deeply appreciates your service and outstanding 
demonstration of your leadership as the President's chief 
diplomat in representing our Nation throughout the world.
    Just yesterday, you made a very important speech before the 
United Nations Human Rights Council in Europe, and now this 
morning you will be making a serious effort to save what is 
left of the State Department's proposed 2012 budget, which, in 
my humble opinion, with a machete and a sledgehammer our 
friends in the majority are proposing to cut by as much as 50 
percent of what the administration is requesting in order for 
your Department to carry out your many responsibilities 
throughout the world.
    How ironic, Madam Secretary, that here you are as the 
President's most senior member of his Cabinet, and yet your 
Department's budget is less than half a percent of the U.S. 
gross domestic product, or 1 percent of the entire Federal 
budget.
    Madam Secretary, it is my understanding that some of our 
colleagues in the majority have suggested that we should 
utilize the 2008 budget operations as the benchmark for the 
2012 budget cycle, which means a reduction of about 42 percent 
in the administration's proposed budget.
    My question is, will your department be able to function 
with these kinds of proposed cuts that we are now considering 
seriously in the Congress?
    Secretary Clinton. Well, Congressman, I hope we don't get 
to that, because it would seriously affect the missions that 
the State Department and USAID have been assigned, not only by 
this President but by the prior President. When President Bush 
and the Bush administration signed, for example, the Strategic 
Framework Agreement with Iraq, it was filled with the kinds of 
work that was supposed to be ongoing in order to solidify the 
relationship that had been built after our military leaves 
Iraq.
    I cannot stress to you how strongly I think it is 
imperative that we continue the mission in Iraq. We are talking 
about democracies in the Middle East. Forget about how we got 
there. The fact is they are trying to figure out how to have a 
democracy.
    Mr. Faleomavaega. Madam Secretary, in other words, you are 
going to be hurting.
    Secretary Clinton. Well, it is not me personally. It is our 
country and our interests and our security that will be 
devastated, in my opinion.
    Mr. Faleomavaega. The chairman has a very strong hand with 
the gavel here, but Madam Secretary, I do have my laundry list 
for your consideration.
    Two months ago, as a member of the Western Hemisphere 
Subcommittee, I submitted a strong letter to Assistant 
Secretary Arturo Valenzuela in your Department concerning the 
current crisis of the abuse and mistreatment by the Chilean 
military forces against the people of Easter Island, or Rapa 
Nui. Unfortunately, I have not received any response from 
Secretary Valenzuela's department or agency. I don't know 
what--maybe he is sick or just didn't care or bother to 
respond.
    And secondly, Madam Secretary, I want to know if the State 
Department has any information or details concerning the plight 
and the suffering of some tens of millions of indigenous 
Indians living throughout Latin America, their problems 
economically, especially economically and socially, in terms of 
their critical situation.
    Also, the administration's recent announcement that you 
were going to bring USAID back to the Pacific, and with the 
budget cuts now, does this mean that there is going to be no 
USAID for the Pacific region? And I am talking about some 16 
island Nations that I am sure really have a need for this 
program.
    Also, the unexploded ordnance cluster bomb issues for the 
countries of Laos and Cambodia, the debt reduction also for 
Cambodia that has been going on now for 30 years and still 
don't understand what happened there. I think my time is about 
ready to go, Madam Secretary.
    Secretary Clinton. Congressman, I will get answers on all 
of these. But specifically, let me just respond on USAID's 
presence in the Pacific. Here is an area where, number one, we 
are finding large energy deposits. I am sorry that Congressman 
Burton is gone, because also Papua New Guinea and in the land 
mass, there is a huge deposit that ExxonMobil is developing. We 
are in a competition with China that is unbelievable. They are 
expending enormous amounts of money. They have a huge 
diplomatic presence across the Pacific. The very least we could 
do is have a USAID office in either Fiji or Papua New Guinea so 
that we fly the flag and people know we care about them. That 
will be on the chopping blocks. It is one thing, but it really 
stands for a much bigger challenge that we are facing in that 
region of the world.
    Mr. Faleomavaega. I might also mention China has about a 
$600 million development program for these Pacific island 
nations. And what do we have in response? Zero. My time is up
    Secretary Clinton. Also, they will vote with us in the 
United Nations consistently, and China is trying to undo that.
    Chairman Ros-Lehtinen. Thank you. Five minutes for Mr. 
Rohrabacher, the chairman of the Subcommittee on Oversight and 
Investigations, is recognized.
    Mr. Rohrabacher. First of all, Madam Secretary, let me 
compliment you on your energy and clarity after arriving here 
from meetings in Europe and arriving late last night. I don't 
know how you do it. You have done a terrific job in advocating 
what your administration wants you to advocate.
    Let me ask you, I would like to be specific and give you a 
chance to answer this. Did President Obama confront President 
Hu during his visit to Washington on the issue of forced 
abortion? I think that could be answered with probably a yes or 
no.
    Secretary Clinton. We consistently raise that with the 
Chinese and I want to just say----
    Mr. Rohrabacher. Is that a yes; President Hu was actually 
confronted by President Obama?
    Secretary Clinton. I cannot answer that--I cannot answer 
that yes or no on that particular visit. I can tell you that we 
consistently raise it in our highest diplomatic encounters with 
our Chinese colleagues.
    Mr. Rohrabacher. Would that include the highest--has 
President Hu been confronted with the issue of forced abortion 
by our President?
    Secretary Clinton. I will have to get an answer for you, 
but let me say that this is an issue that I started raising in 
1995.
    Mr. Rohrabacher. Okay.
    Secretary Clinton. And I continue to raise it, and I am the 
chief diplomat and I raise it in every setting that I can.
    Mr. Rohrabacher. Okay. Can you get back to me? You can't 
give us a yes or no now, but maybe you can get back to us, and 
we will call you on this, as to whether President Hu has been 
confronted himself on the issue of forced abortion.
    Secretary Clinton. I will certainly do that, and let me 
just quickly add, because Congressman Smith's question----
    Mr. Rohrabacher. You know what, Madam Secretary, I only 
have a couple of minutes to ask you some questions, and I agree 
with the question, but I was also doing Mr. Smith a favor.
    I would like to ask you a little bit about the nature of 
foreign aid. It seems to me that we give--when we are talking 
about the amounts of money that is being spent, the billions of 
dollars we spend, does it make any sense at all for us to be 
borrowing money from China and giving it to other countries, 
especially giving it back to China?
    I have noticed that you will be asking in your budget 
request for $1.3 billion to the--let's see, it says here the 
global fund and the global fund assistance program. China 
happens to be the fourth largest recipient and has received 
almost $950 million. Now, what sense does it make for us to 
borrow money from China and then give it back to them in a 
grant, and then we are paying the interest, of course, on the 
money that we have borrowed from them? This is insane.
    Secretary Clinton. Well, Congressman, first, you are not 
going to get an argument from me. I was part of, in an indirect 
way, the last administration that balanced the budget, and I 
wish we had stuck with it. And we find ourselves in a very 
challenging position now because of what happened between 2001 
and 2009. So I am one of those who believe we have to be smart 
and tough and do what is necessary to balance the budget, and I 
don't think it can all be done by slashing our foreign aid and 
our State Department budget.
    With respect to your specific question, we do support the 
global fund. It has been an efficient way for the United States 
to amplify our own efforts with respect to PEPFAR. And yes, 
China is a recipient, and China is stepping up and assuming 
greater responsibility than when we started, when they would 
deny they even had an HIV/AIDS problem. And from our 
perspective, HIV/AIDS is a communicable disease that actually 
affects the world, and therefore we want to stamp it out 
wherever we can find it.
    Mr. Rohrabacher. And your answer to my question is, yes, it 
does make sense for us to borrow money from China and give it 
back to them as a grant as part of this global fund assistance.
    Let me just note that we can disagree as to who caused the 
problems for our economy. Let us just note that we are $1.5 
trillion more in debt this year and the year before since this 
administration has taken power as compared to the last year of 
the Bush administration. Whether or not who is responsible for 
that, we can talk about later.
    Let me ask about aid to Pakistan, and again, we have only 
got a few seconds here. Pakistan has received billions of 
dollars' worth of aid; yet they have a U.S. citizen, Raymond 
Davis, who is now being held under very questionable 
circumstances. Are we going to demand--are we still going to 
give our money away to people who support the Taliban and put 
our intelligence assets at risk?
    Secretary Clinton. Well, Congressman, we are working very 
hard in order to achieve the release of Mr. Davis. It is one of 
our highest priorities across our Government.
    We do believe that the combination of military and civilian 
aid that we have pursued with Pakistan is in America's 
interests and that is our first and most important----
    Mr. Rohrabacher. Yeah, we develop the plan, give to 
Pakistan, and Pakistan creates nuclear weapons----
    Chairman Ros-Lehtinen. Thank you, Mr. Rohrabacher. I would 
like to recognize Mr. Payne, the ranking member on the 
Subcommittee on Africa, Global Health, and Human Rights for 5 
minutes.
    Mr. Payne. Thank you very much. If you didn't give the 
whole title, I might have had 4 or 5 seconds more.
    But let me just rest and say that it is so great to see you 
again, and let me commend you, Madam Secretary, for the 
outstanding work that you continue to do with your firmness and 
your knowledge of world affairs.
    I am also very distressed that H.R. 1, as it relates to our 
whole foreign affairs, issues at the National Family Planning, 
cutting $200 million; 83 percent less for debt restructuring 
for Haiti; 49 percent reduction in international disaster 
assistance funds which helps with clean water, emergency 
shelter, health care, et cetera, rape prevention; 41 percent 
reduction in refugee and migration assistance; 17 percent 
decrease in the Peace Corps, which everyone says is the 
greatest program in the world, what we get back for our 
investment; 29 percent reduction in the Millennium Challenge 
Corporation. And we can go on and on.
    It is absolutely to me insane. Whereas it has been 
indicated 1 percent of our budget goes to foreign affairs and 
we are slashing it. This is not going to solve our problem in 
this country by taking 1 percent and cutting that in half to 
make you have one-half of 1 percent going to alleviate problems 
in the world. So I would hope that there can be some changes 
made on the way to the budget question.
    Let me just ask quickly some questions in regard to south 
Sudan with the recent elections. Will cuts prevent us from 
really getting in there and assisting that new government? I am 
concerned about Darfur, that we don't give up tough sanctions 
on the Bashir regime until Abyei is concluded in south Sudan, 
which it should be a part of south Sudan and the whole Darfur 
situation.
    I also would hope that we can step up our support for the 
transitional Federal Government in Sudan. I think there is a 
new offensive going on, and if we can support the African 
peacekeepers that are going to try to have this new offensive, 
I think that we can secure that area in Somalia.
    I will stop there for a minute and maybe try to give you a 
minute to answer a couple of those questions.
    Secretary Clinton. Well, Congressman Payne, I appreciate 
your listing the cuts that are in H.R. 1 because obviously 
those will have a dramatic impact on our ability to wield our 
power. I mean, that is what I am interested in. I am interested 
in results for America. And if we are basically going to people 
empty-handed or we are having to close offices and cut back 
programs so that we don't have that relationship that enables 
us then to turn around, as we did with the Egyptian military, 
and say, ``Hey, guys, remember us, we trained you, we worked 
with you, here is how we think you can do this,'' we will be 
weakened. I mean, that is the bottom line.
    I mean, it is not a pleasant thing to say because I think 
at this moment in history, as much as any, it is not like there 
is no competition out there. Iran is competing with us. China 
is competing with us. We have people who are more than happy to 
step forward and fill the void that we leave behind.
    I was struck, for example, that the conservative government 
in the United Kingdom actually increased their development 
budget. While they were cutting everything else, they said, you 
know, if we don't compete, if we are not present, we are really 
going to be off the map. And so they are actually increasing 
their development budget.
    So on these issues, like you mentioned, south Sudan, 
Darfur, Somalia, the United States is the major player, and I 
think we deserve a great deal of the credit for helping the 
Sudanese referendum for south Sudan to go peacefully. We are 
deeply engaged in working to resolve Abyei. We are still 
focused on Darfur.
    You mentioned Somalia and the transitional Federal 
Government. We are the largest supporter of the African Union 
forces that are in there taking the fight to al-Shabab Chicago 
which is allied with al-Qaeda.
    I mean, I could go around the world and point to where our 
aid and our diplomatic effort coincide with our security 
challenges, and what our military is doing and places where our 
military is not present, where we are the only representation 
of American power. You know, look, it is up to the Congress to 
make this decision, but as I said in my opening remarks, every 
time we pull back, we have paid a bigger price, and that is 
what I worry about.
    Mr. Payne. Even in Cote d'Ivoire where Bagwell is still 
staying in office, it has an impact on our chocolate industry, 
which is a big industry in New Jersey. So we are interconnected 
financially.
    Chairman Ros-Lehtinen. Thank you, Mr. Payne. Mr. Manzullo, 
subcommittee chair on Asia and the Pacific.
    Mr. Manzullo. Thank you, Madam Chair.
    Madam Secretary, it is good to have you here this morning. 
I represent the 16th Congressional District of Illinois, not 
too far from Park Ridge, and 26 percent of our manufactured 
items are exported. We have over 10,000 jobs directly related 
to foreign direct investment from Denmark, Sweden, Germany, 
Italy, Israel, and other countries.
    And this past week, I led the largest congressional 
delegation ever to New Zealand and to Australia to discuss the 
Trans-Pacific partnership, and appreciate your going there in 
December of last year, signing the Wellington Declaration. It 
strengthens our ties with that part of the world. We got out 2 
hours and 21 minutes before the earthquake hit, and it was 
fortuitous on our part.
    Our relationship with New Zealand and Australia is 
extremely important, and I am delighted that the Prime Minister 
will visit the United States next week and speak before a joint 
session of Congress.
    As a result of our discussions, I learned that the New 
Zealand Government is in the process of reauthorizing the 
patent system which will actually remove patent protection for 
software, and we discussed that at length with the Trade 
Minister, Tim Groser, and the Australians are in the process of 
adopting a so-called plain packaging rule for tobacco which 
adversely impacts the use of trademarks, and many people see 
the use of the patent system to enforce social change as being 
inimical to the United States' strength in the patent laws as 
we know it.
    These issues concerning loss of patent protection for 
software and also for trademark protection are really 
disturbing to the nine countries that have been involved in 
those negotiations which, as you know, go back probably 10 
years through several different administrations, especially in 
light of China's continuous theft of intellectual property, 
closure and outright theft of American businesses, including a 
couple from my congressional district.
    My question to you is, are you aware of these patent issues 
and trademark issues involved in the TPP? And I would like to 
hear your thoughts on them and what America is going to do to 
try to turn around New Zealand and Australia to a higher level 
of patent protection.
    Secretary Clinton. Well, Congressman, first let me say how 
pleased I am that you and your large delegation were safe. We 
had some very tense moments there trying to make sure that 
everybody, all the Americans as part of this large delegation, 
were accounted for. So thank you.
    And with respect to the TPP, although the State Department 
does not have the lead on this--it is the United States Trade 
Representative--we work closely with the U.S. TR. It is 
absolutely essential that we work with our friends and allies, 
particularly countries like Australia and New Zealand, to make 
sure they understand the implications of some of their internal 
domestic legislative changes. And we are doing so because I 
share your concern. We obviously have the biggest stake in the 
world in improving the protection for intellectual property, 
not seeing close friends and allies begin to remove those 
protections.
    You point out that China remains the largest violator, and 
part of what we have tried to do is to push them to recognize 
that as they develop they, too, will want the protection for 
their own intellectual property, and they need to be part of an 
international regime. So we are aware of this. We are working 
on it, and I will keep you informed about how the negotiations 
proceed.
    Mr. Manzullo. Thank you and I yield back my time.
    Chairman Ros-Lehtinen. Wow. Thank you, Mr. Manzullo, Man of 
the Year.
    Mr. Sherman, the ranking member on the Subcommittee on 
Terrorism, Nonproliferation, and Trade.
    Mr. Sherman. I join with Mr. Rohrabacher and his amazement 
at your energy, which is exceeded only by my amazement of Don 
yielding back part of his time. And of course, Mr. Rohrabacher 
would be even more amazed if you reflected on the fact that I 
think this is your first of four hearings before various 
congressional committees over the next 2 days.
    I have got so many areas to pursue that I will mostly 
propound questions for the record so you will have a few 
minutes of relaxation.
    The Korea Free Trade Agreement. What worries me is goods 
coming into this country duty free, manufactured by North 
Korean or Chinese labor. For example on automobiles, the 
automobile could be 65 percent made in China, then taken to 
South Korea where it would be finished by Chinese guest workers 
residing in barracks in South Korea, and then this car could 
enter the United States duty free, having never been touched by 
a South Korean worker.
    Of greater concern is outlined in my letter of February 9 
to the President, which I know your staff is already working on 
a response to, dealing with the special industrial zones in 
North Korea, in which North Korean slave labor is provided to 
South Korean companies. The South Korean Ambassador to the 
United States is on record as saying that he believes that the 
Korea Free Trade Agreement will pave the way for goods entirely 
produced in these slave-labor zones to enter the United States 
duty free.
    And if you review my letter, you will see that it looks 
like the South Korean Ambassador has a very good legal point, 
all the more reason why we need to change this agreement before 
we submit it to Congress, particularly the annexes described in 
my letter.
    I applaud your efforts to liberalize our export controls 
without hurting our national security. The goal has got to be 
jobs, but sometimes liberalization leads to exporting the jobs. 
If something is taken off the munitions list, then it could be 
manufactured in China and imported into the United States. If 
you license the export of tools and dyes and plans and 
technology, that can lead to goods being produced abroad. So I 
hope that prioritization in the liberalization is given to 
those projects that will provide more jobs rather than more 
offshoring to the American economy.
    As to Iran sanctions, I think the ranking member did an 
outstanding job in propounding the questions and pointing out 
how important this is. The State Department began a number of 
investigations, particularly of Chinese companies, back in 
September. Under the law, the State Department is supposed to 
complete that within 6 months--that means next month--and a 
question there for the record is whether the U.S. is actually 
prepared to sanction a firm located--and a major trading 
partner of the United States, also known as China. And if we 
are not willing to sanction any company in China, if we are 
looking to delay decisions where 6 months ought to be long 
enough to make a decision, then we make a mockery not only of 
our policy toward Iran but of the rule of law in the United 
States, since the law does require certain action.
    As to the Caucasus, the Defense Ministry of Azerbaijan 
stated recently that his country is seriously preparing for 
war. I hope you could outline for the record the serious 
repercussions that Azerbaijan would face if it renewed the 
Nagorno-Karabakh conflict.
    As to an organization known as the MEK, the U.S. Circuit 
Court of Appeals for the District of Columbia has required the 
State Department to review its decision. A number of well-
respected foreign policy experts have said the MEK ought to be 
taken off the list. This is the only thing that Howard Dean and 
John Bolten agree on, not to mention General James Jones, Bill 
Richardson, and Lee Hamilton recently.
    I asked for a classified briefing of the relevant 
subcommittee. The State Department refused because of the 
litigation. The Intelligence Committee provided it, and 
frankly, after that classified briefing, I thought that perhaps 
there was nothing done this century that justified the MEK 
being on that list, and it provided substantial ammunition to 
the belief that MEK is on the list as part of a peace offering 
or a concession to Tehran. So I hope that you will personally 
review the decision that the court has ordered your department 
to review.
    Finally is the issue of Libya. It may in the future, 
depending upon developments, be good policy for us to arm the 
Benghazi Army, if it ever organizes itself, if they have a 
functioning provisional government. And I wonder if you have 
begun the review of the recent U.N. sanctions and of U.S. law 
to make sure that America could legally do that should you 
decide it to be good policy. If, God forbid, there is a major 
conflict around Tripoli, let's make sure the right side wins.
    I yield back.
    Secretary Clinton. Thank you, Congressman.
    Chairman Ros-Lehtinen. Without objection, members may have 
5 calendar days to submit questions for the record for the 
Secretary, Mr. Sherman, so we hope to get some answers to those 
important questions.
    I am pleased to recognize----
    Mr. Sherman. Madam Chairman, I would ask unanimous consent 
that my letter of February 9 be made part of the record.
    Chairman Ros-Lehtinen. Absolutely, without objection.
    Mr. Royce, the chairman of the Subcommittee on Terrorism, 
Nonproliferation and Trade, is recognized for 5 minutes.
    Mr. Royce. Madam Secretary, on the question of Libya, I 
think that one of the important resources could be Libyans and 
Libyan Americans for their input. Omar Turbi, who has testified 
before the committee before, is here today. I talked with him 
this morning. I know that Samantha Power, you know, in the 
administration had some observations. Some of those 
observations have to do with what we didn't do in Bosnia in 
terms of jamming Milosevic's radio stations. I actually carried 
legislation on doing this, but we couldn't get it through until 
the bombings started.
    So I think right now if we look at the lesson of Rwanda, 
right, I mean one of the lessons is if we can--when a dictator 
is telling people to kill his own people, there is an 
opportunity, especially given the fact that he is jamming al 
Hararya anyway. So he jams; why don't we put the assets up to 
take care of that?
    And one of the things, for example, that al Hararya could 
do if they were broadcasting would be interviews with Egyptian 
soldiers saying why they didn't shoot, why they didn't fire on 
their own people. This kind of thinking--because in a way it is 
an information war, isn't it? And so I just wanted your 
response to that.
    And I was also going to ask you briefly in terms of another 
problem on the African continent that you are very well aware 
of, the LRA, Joseph Kony. Myself and a colleague had 
legislation basically, you know, to put the assets, deploy the 
assets. This is a fellow, you know, who just exists to pillage, 
and he grabs child soldiers out of the villages, or grabs 
children and converts them into soldiers.
    So we now have passed the authorization over, you know, for 
the plan, and I was going to ask you also about implementation 
of that plan to remove him from the equation.
    Thank you.
    Secretary Clinton. Well, Congressman, I think that the 
ideas that you have offered regarding Libya are ones that we 
are seriously considering as part of the package of potential 
actions that are being looked at by both our civilian and our 
military teams.
    I also think that this is an information war to a great 
extent, and what we have been trying to do in the last 2 years 
is to rebuild our credibility so that what we had to say would 
be listened to. I did a Web chat with an Egyptian Web site, and 
we gave them 2 days' notice, and they went out in Tahrir Square 
and elsewhere. They got 7,000 questions.
    So people are really anxious to hear from us. And they are 
also, as you I think rightly point out, anxious to hear from 
each other, like the Egyptian soldier idea which I think is a 
terrific one. So we will follow up and give you more feedback 
about what we are doing.
    I could not agree more about the horrors of the LRA. This 
is one of the great criminals of the last 50 years who has 
pillaged, raped, abducted, kidnapped, killed in every way known 
in the worst of barbarism. So we are very focused on that.
    As you know, because you have followed this closely, he 
unfortunately has been harder to get than we would have 
thought. We have had a lot of support from allies and partners, 
but he unfortunately has escaped accountability. But we are 
going to continue to do that, and we appreciate your keeping 
that in the spotlight.
    Mr. Royce. Thank you.
    I had a last question I was going to ask you, and that went 
to the request that North Korea is making of the administration 
for food aid. We have had hearings here in which a French NGO 
testified that they traced the food aid that they had 
previously given and found that it ended up on the Pyongyang 
food exchange, basically being sold for hard currency for the 
regime. What she was testifying to us, as a representative of 
this NGO, was the same information that we had also received 
from Mr. Yop who was the minister of propaganda, I guess you 
would call him, for like 50 years, and he defected. And I saw 
that one of his former employees, a central committee member in 
North Korea, had told the press yesterday the same thing he had 
once told us.
    And the quote is, ``We must not give food aid to North 
Korea.'' This is from a former Politburo member. ``Doing so is 
the same as providing funding for North Korea's nuclear 
program.''
    What had transpired is Hwang Jang-Yop explained to us how 
they basically took hard currency. That is what they needed to 
build their weapons program, and they would get it any way they 
could. And one of the ways they get it is by the financial 
support, you know, that they receive.
    And so I was going to say that I think it is wise counsel 
from North Korean defectors that we not do that. I was going to 
ask for your opinion.
    Secretary Clinton. We agree with----
    Chairman Ros-Lehtinen. Thank you so much, Madam Secretary. 
Thank you, Mr. Royce.
    Mr. Royce. I am glad you agreed. Thank you, Madam 
Secretary. Thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Mr. Meeks of New York is recognized, 
He is the ranking member on the Subcommittee on Europe and 
Eurasia, for 5 minutes.
    Mr. Meeks. Thank you, Madam Chair.
    Madam Secretary, it is so great to see you, and I want to 
first commend you and all the diplomats under your charge for 
the tremendous efforts at the State Department to ensure U.S. 
security and prosperity in these challenging times globally. 
Through your skilled advocacy around the world to rebuild 
partners and to--reliable partners and bilateral engagement, 
you are making indeed America a safer and a stronger Nation.
    I also want to thank you. We have within our office a 
Pearson Fellow by the name of Nancy Cohen who is a Foreign 
Service officer, and she has done a tremendous job and just 
exemplifies the great people you have in the Foreign Service.
    Now, there are too many questions to ask and time is 
limited, so I am going to ask some questions that later that 
group can put down for the record, but before I get to the 
questions I also want to preference my statement by an 
overarching concern with the current budget that has been 
proposed by the Republican majority.
    The current administration inherited a geopolitical reality 
riddled with anti-Americanism. Now that our reputation is being 
restored and there is such an opportunity for positive change, 
is this the time that we really want to pull back funds that 
support critical programs and initiatives? This is more than 
just, in my opinion, penny-wise and pound-foolish. It is 
downright dangerous to our national interests. And you know, 
when you talked earlier in regards to Europe, even though they 
are tightening their belt, you know, they are also putting more 
money into foreign aid.
    One of the questions I would have is the partnership we 
have with Europe, whether or not--there is a perceived--you 
know, there is a perceived--whether or not we then begin 
holding up our end of the bargain. And we are talking about 
foreign aid, which brings me to the specific point of, you 
know, almost half of the funding is being cut from the 
population refugee and migration budget.
    You know, I am deeply concerned about vulnerable 
populations like Afro-Colombians and the indigenous that Mr. 
Faleomavaega was talking about, that live in the crossfire 
conflicts that are not of their own making, and to renew any of 
the progress we have made to make their lives more secure as a 
result of our own hemisphere, or our own hemisphere more 
secure.
    So my question, Madam Secretary, is since the United States 
is a leader in protection of displaced populations, what impact 
could funding cuts for the migration and refugee assistance 
account have on assistance of refugees overseas? How could 
reducing funding for assistance and programs that serve 
forcibly displaced populations impact the United States' 
interests in such areas as Pakistan, Afghanistan, Iraq, and 
Sudan? And what are the major concerns the Department of State 
has regarding the consequences of drastically reducing 
assistance to refugees?
    Secretary Clinton. Well, thank you so much, Congressman, 
and thank you for raising the refugee assistance issue. The 
United States has been, and I hope will remain, the leader in 
dealing with refugee challenges, internally displaced people, 
people fleeing from conflicts; and it has been one of the areas 
where we are able to claim that we put our values into action 
because we are there on the ground.
    You have been in refugee camps. You see the USAID big sign 
there. You know what it means to have experienced development 
experts who provide the base for a safe place, whether it is in 
eastern Congo or from a flood in Pakistan or in Haiti or 
anywhere else. So this is a particular concern, that we be 
prepared to continue the humanitarian work that undergirds a 
lot of what people know about us around the world.
    Now I have fought to be sure that when we go into these 
post conflict, post disaster situations, the United States' 
brand is front and center. You know, there was when I got 
there, a feeling that maybe we shouldn't be, so to speak, 
trumpeting our own horn. My attitude is, if the American 
taxpayers that are putting that money out there, if people 
don't want American aid, if they don't want USAID and our 
programs to be there helping them, then we won't be there, but 
if they are going to take it, then we are going to be 
advertising it.
    So I think it is a big part of what we are doing, because 
what I found as I started traveling around the world is that a 
lot of people didn't know what we did. You know, they said, 
``Well, wait a minute, you know, the Chinese are doing this and 
the Saudis are doing that and so and so are doing that.'' I 
said, ``Yeah, we have got more money in there than those guys 
combined, and we are going to get credit for it.''
    So it is not only doing the right thing, which should be 
the primary reason we do it, but frankly, I want to build the 
American brand again so that when people get food, clean water, 
shelter, they know where it came from. It came from the 
generosity of the American people. And so this is for me a big 
issue and we are doing even more to try to get that message out 
so that we can be the leader that I think the American people, 
with their generosity, want us to be.
    Mr. Meeks. Let me just ask this. I know you won't get a 
chance to answer because of the time. The other concern I 
wanted to raise was of the northern distribution network and 
how effective it has been for the U.S. efforts in Afghanistan 
and what can be done in utilizing the network to improve U.S. 
relations more broadly in central Asia. Again, with Mr. 
Faleomavaega and being on this trip recently with him, we 
haven't connected with all of those countries. It is such an 
important part of the world.
    Secretary Clinton. Absolutely. That is a big part of it. 
Thank you.
    Chairman Ros-Lehtinen. Thank you so much, and now I am 
pleased to give 5 minutes to Mr. Chabot of Ohio, our new 
Subcommittee on Middle East and South Asia chairman. Mr. 
Chabot.
    Mr. Chabot. Thank you, Madam Chairman.
    Before beginning my questions, Madam Secretary, let me 
remind some of my colleagues on the other side of the aisle who 
keep bemoaning the cuts in the CR that we are broke, and the 
only reason that this Congress is even dealing with the CR is 
because the last Congress couldn't even pass a budget for the 
first time in 34 years, at least in the House, and then 
couldn't pass appropriations bills to keep the government 
functioning.
    So that being said, let me begin my first question with 
Libya. Madam Secretary, it is difficult to look at the initial 
U.S. response to the unrest in Libya and think of any word 
other than ``tepid.'' Although the administration has suggested 
that its initial reaction was tempered in order to avoid 
provoking a hostage situation, such fears did not seem to 
hinder other nations. The Chinese dispatched a frigate and the 
British dispatched at least two warships and employed C-130s 
during their evacuation operation. At the same time, our rented 
ferry was stuck in port because it could not initially make the 
journey across the Mediterranean.
    Everything that we have learned about the Qadhafi regime 
over the past decade indicates that its leadership responds to 
force or the threat of force. For example, back in 2003 when 
Qadhafi, after looking at the ease with which the U.S. 
military--at least at first--dispatched the Iraqi Army, they 
feared that he might be next. His response was to agree to 
renounce all terrorism and hand over to the United States his 
entire WMD program.
    By sending ships to the Libyan coast, the British and 
Chinese effectively told Qadhafi that there would be a steep 
price in intervening in their evacuation. Why did we not do the 
same? Although we are now repositioning forces off the Libyan 
coast, our unwillingness to use or to threaten to use force to 
protect our own citizens has left many around the world 
pointing to this incident as a sign of weakness of America's 
will.
    What led the administration to believe that threatening 
force to protect our own citizens would have been provocative?
    Secretary Clinton. Well, Congressman, first, let me say 
that other countries don't have the same history with Libya 
that we do. And if you look at some of the early statements 
that were coming out of Qadhafi and his leadership team, they 
didn't talk about the Chinese. They talked about the Americans.
    Our Embassy was overrun in Libya in 1979. We feel that we 
did this in a prudent and effective manner, and we did it in a 
way that did not raise the alarm bells around the region and 
the world that we were about to invade for oil. If you follow, 
as we follow, all of the Web sites that are looking at what is 
happening in the Middle East, you see a constant drum beat that 
the United States is going to invade Libya to take over the oil 
and we can't let that happen.
    Well, we are not going to do that and we are going to side 
with the Libyan people in their aspirations, but the last thing 
in the world we wanted was to start off with military assets 
when we very effectively got our people out. Yeah, the seas 
were high; the seas were high for the other evacuators as well.
    I disagree fundamentally with your assumption. I see no 
evidence that anybody thinks less of us because we were smart 
about how we got our people--not only Embassy people but 
American citizens who were working in Libya--out safely. And as 
soon as we did, we pivoted very quickly and led the way at the 
Security Council, have led the way in pushing beyond rhetoric 
with the Europeans and the others. It is easy to make a speech. 
It is harder to actually impose a sanction, freeze the assets, 
target the arms, et cetera, and I think we handled this in a 
very effective way and without a single problem for any 
American.
    Mr. Chabot. Madam Secretary, let me move on. We have 
limited time, obviously.
    On the Iranian nuclear program, I would like to talk about 
that next, briefly. During the latest round of negotiations 
with the Iranian regime in Istanbul, the Iranians were adamant 
in emphasizing their right to indigenous enrichment. A recent 
bipartisan letter from numerous Senators reflects the 
overwhelming view of Congress on this question. It is still, 
however, unclear what the administration's position on this 
issue is. The letter cited reports suggesting that the 
administration is open to an indigenous Iranian enrichment 
capability, albeit under certain conditions.
    The so-called Einhorn Plan would allow Iran to maintain 
4,000 centrifuges. The U.N. even went so far as to suggest 
during an interview with the BBC that Iran has a right to 
enrichment. Article IV of the on the Nonproliferation Treaty, 
the source of the Iranian claim, is not clear on this point. 
What is the administration's position on Iran's claim that they 
have a right to an enrichment program on their soil, and does 
the administration believe that the current regime should be 
allowed to enrich or reprocess domestically?
    Secretary Clinton. Well, Congressman, it has been our 
position that, under very strict conditions, Iran would 
sometime in the future, having responded to the international 
community's concerns and irreversibly shut down its nuclear 
weapons program, have such a right under IAEA inspection. I 
think that is the position of the international community, 
along with the United States.
    Chairman Ros-Lehtinen. Thank you, Madam Secretary. Thank 
you. Mr. Carnahan, the ranking member of the Subcommittee on 
Oversight and Investigations. And the reason I interrupt is we 
have got limited time, and everyone wants to ask questions. So 
I apologize, Madam Secretary.
    Mr. Carnahan. Thank you, Madam Chairman, and welcome, 
Secretary Clinton.
    Personally, for the work that you do on behalf of the 
people I represent in Missouri, we really appreciate you being 
a one-person voice of America at a time when we really need it. 
So thank you.
    I wanted to submit two questions to you in writing, one 
about our continued work. We had an Oversight Subcommittee 
hearing last year. We heard from Stewart Bowen, and would like 
to get an update on the transition efforts in terms of 
reconstruction, how that process is going, and also would like 
to get a written question in to you about the ongoing 
engagement with Bosnia for constitutional reforms and the need 
for U.S. engagement with the EU.
    But I would like to focus my question about the voices of 
democracy that are really rising across the Middle East, North 
Africa and elsewhere, and the need to reevaluate our public 
diplomacy tools.
    Certainly, looking beyond our traditional state-to-state 
diplomatic efforts but about citizen-to-citizen diplomacy, the 
cost effectiveness of that--I am especially reminded of that. 
This past week I had a bipartisan town hall meeting with 
Congresswomen Emerson and Clay at Washington University. And a 
student came up to me there who studied in Cairo the previous 
year, was continuing to have contact with students there in 
Cairo, and how these kinds of engagements are so critical in 
those countries. Could you talk about that?
    Secretary Clinton. Well, I agree with that completely, 
Congressman. If I could double or triple our student exchanges, 
particularly into this region right now where we have more of 
our students going to Cairo, to Tunis, to Oman, to places where 
young people are voicing their desire for democracy and more 
people coming from those regions, we have tried to increase our 
international visitors program and specialized programs, but I 
am a big believer in people-to-people diplomacy, and I would 
like to see us do even more of that.
    Mr. Carnahan. And what about the use of new media?
    Secretary Clinton. We are moving very rapidly on the use of 
new media. I have an extraordinary team of young people, as you 
might expect, who are leading the charge on this, and it has 
totally changed how we are communicating; because, you know, 
Twitter, Facebook, they are in real-time, and you can't 
overlook broadcasting, and frankly, I wish we were doing a 
better job in our broadcasting efforts.
    I met with Walter Isaacson, who is the new chair of the 
Broadcasting Board of Governors. Aljazeera is a 24/7 entity. 
The Chinese have started an English language television 
network. The Russians have started an English language 
television network. We should be by far the most effective in 
communicating.
    So, yes, social media is very important, but still most 
people in the world get their news and their images from 
television and radio. So we can't forget old media while we try 
to break new ground in new media.
    Mr. Carnahan. Thank you. And finally, I wanted to touch on 
another hearing we had last year. We had Ambassador-At-Large 
Verveer here talking about women's empowerment worldwide. I 
really have serious concerns about the recently passed CR, the 
reinstatement of the global gag rule, the reductions in 
international family planning and global health assistance; as 
you mentioned, some of the programs that President George W. 
Bush was so supportive of. Could you talk about how this will 
impact women who are so vital to development, how it will 
impact those communities and, in fact, translate to our 
national and our economic security?
    Secretary Clinton. Well, thank you, Congressman. This is 
very close to my heart, and as you know, a woman dies from 
complications in childbirth every minute, about 529,000 each 
year, and we have made a lot of progress but we have a long way 
to go. And I am worried that, you know, the House 2011 budget 
proposes more than $1 billion in cuts to global health.
    What that means is that 5 million children and family 
members will be denied treatment or preventive intervention; on 
malaria, 4,500 others; and more than 40,000 children under 5, 
of which 16,000 are newborns, will not get access to effective 
child survival intervention. PEPFAR will have to turn away 
400,000 people who require lifesaving treatment against HIV/
AIDS. More than 16 million people will be denied treatment for 
debilitating tropical diseases. More than 40,000 children and 
family members will be denied treatment for tuberculosis, and 
we will have 18.8 million fewer polio vaccinations and 26.3 
million fewer measles vaccinations. That affects us.
    I woke up this morning and was listening to the news and 
heard about the effort to find some woman who is wandering 
around Washington with measles. So this is not just what we 
fail now to do for others; it is how that will come back and 
affect our own health here at home.
    Chairman Ros-Lehtinen. Thank you, Madam Secretary. Mr. Paul 
of Texas.
    Mr. Paul. I thank you, Madam Chairman, and welcome, Madam 
Secretary.
    I want to comment first about the demonstrations and the 
change of governments going on in the Middle East and the 
Mediterranean. I think everybody is excited about that and 
always hopeful. I am hopeful, but not overly optimistic, 
because of the long-term history of 1,000 years that they don't 
readily adapt to true liberty.
    The one thing, though, that might be different is the use 
of the Internet, and that is very positive. And yet governments 
are very strong, and that was the first thing they closed down 
over there, because the last thing governments want is 
information to get out.
    But a lot of people in this country have come to the 
conclusion that our policy overall has been inconsistent; that 
sometimes we support the bad guys and the bad guys become our 
enemies. For instance, you know, we worked with Osama bin Laden 
when he was fighting the Soviets. We were allies with Saddam 
Hussein when he was fighting the Iranians. We certainly propped 
up the Shah of Iran for 26 years, and that bred resentment and 
hatred that ushered in an age that now you are dealing with 
because we have radicals, you know, in Iran. So it goes on and 
on.
    We now have propped up Saudi Arabia for a long time, sold 
them a lot of weapons, and yet 15 of the Saudis were part of 
the 9/11 disaster, and even the 9-11 Commission said that our 
presence there had a lot to do with that.
    We keep supporting Algeria and Morocco and Yemen and all 
these dictators, and yet we pretend that as soon as it looks 
like the dictator might fall, oh, we are all for democracy and 
we are for freedom and we are against these dictators. I don't 
think the people there understand. I don't think our people in 
this country quite understand either.
    You mentioned in your comments about Libya, that nothing 
should be taken off the table, which is to me a little 
frightening, because the previous administration would say that 
when they would be asked questions about first strikes, 
preemptive war, nuclear first attacks. That scares the living 
daylights out of me when nothing is taken off the table, and I 
dread the fact that we might be considering military activity 
in Libya. I mean, we are flat-out broke. We are in all these 
countries. War is expanding. We are bombing in Pakistan. We are 
dealing in Yemen. We really don't have total control of Iraq, 
and partial control of Afghanistan, and it goes on and on.
    But the question I have is, isn't there a limit to 
supporting these dictators? And I, of course, take a position 
which the least involvement, the better; and deal with people 
on different terms rather than saying, you know, we will buy 
our friends. I think a friend bought is not a friend, and I 
think a friend that is coerced by military power is not a 
friend and breeds resentment.
    What is wrong with swearing off support for and aid for all 
dictators? Just think what might happen in the Middle East, if 
we did that--I mean, here we have supported Egypt, $70 billion. 
They have a lot of weaponry there, and who knows what kind of 
friends they are going to be with Israel? Has this been 
beneficial to Israel with all these weapons here? Why wouldn't 
Israel be a lot better off if we swore off all aid to all 
dictators in that country as a moral position, and as a good 
position for our national defense and our national security, as 
well as a good position for Israel.
    Secretary Clinton. Well, Congressman, you make a very 
passionate argument, and my response is that the United States 
over the course of its entire diplomatic history has had to 
make some very difficult decisions. We try to balance what we 
believe to be in our interests. Sometimes, and I would argue 
most times, we get it right; sometimes we don't.
    Take Egypt, for example. I believe that it was in America's 
interests and in Israel's interests to support Egypt following 
the Camp David Accord. Thirty years of peace between Egypt and 
Israel, albeit not a warm and fuzzy peace but nevertheless a 
peace, was an essential element of Israel's ability to develop 
and continue to strengthen itself and in a very tough 
neighborhood.
    The fact that we did have those relationships in Egypt made 
it possible for us to have very, very frank conversations and 
prevent what we now see going on in Libya.
    Mr. Paul. May I interrupt just a second to ask, is there no 
chance in the world that Israel might not be better off under 
these conditions? It seems like they could be worse off with 
what is happening over there, mainly because these dictators 
will have our weapons and they may well be turned against 
Israel?
    Secretary Clinton. Well, you know, I think the qualitative 
military edge that we guarantee Israel protects against that. I 
think Israel, certainly in my conversations at the highest 
levels, prefer predictability, prefer stability, do not want 
vacuums created that could lead to very bad outcomes for them.
    Chairman Ros-Lehtinen. Thank you, Madam Secretary. Mr. 
Sires of New Jersey is recognized for 5 minutes.
    Mr. Sires. Thank you, Madam Chairperson.
    Madam Secretary, I want to thank you for the service that 
you give this country, all these years that you have, and the 
way you carry and represent the country throughout the world. 
Thank you very much.
    I have a couple of questions. I hope I get them in. The 
other day, Defense Secretary Gates made a statement that was 
certainly very curious. He said that any Secretary of Defense 
that can recommend that we use ground forces, to the President, 
should have his head examined.
    The wars that we are in, all the billions of dollars that 
lead to part of the deficit that we are carrying in this 
country, is that a recognition that, really, unless it comes 
from the people of those countries, that we really shouldn't go 
in with armies into some of these countries because we are just 
going to squander our resources and we are not going to really 
get anywhere?
    Secretary Clinton. Well, I think that what the Secretary of 
Defense was saying should be heeded. It is a very strong 
warning. But I also believe that there are situations where we 
have no choice, but we need to be very clear that it is the 
only and best choice available to us.
    Mr. Sires. Because I am concerned about this package that 
we have now in Libya and some of these countries. So I hope we 
don't get ourselves into a ground war.
    My second issue has to do with Cuba. Obviously, we seem to 
be making concessions and we seem to be doing all the things 
that the Government of Cuba wants. And yet, at the same time, 
they are one of the biggest abusers of human rights. Just last 
week, they put more people in jail. They beat up Zapata's 
mother, who is the political prisoner dying in jail, and yet we 
have appropriated $20 million for human rights activities in 
Cuba, and we haven't spent a dime of it.
    Secretary Clinton. Well, Congressman, we are committed to 
spending that money. We are trying to do so in a way that will 
strengthen direct engagement with the Cuban people. I know you 
are very aware not only of the terrible abuses by the Castro 
government against Cubans but the holding of Alan Gross, one of 
our USAID personnel who was trying to get aid into Cuba to help 
the Cuban people. So we remain committed to advancing policies 
that will assist Cubans on the ground, and we are committed to 
freedom and democracy for the Cuban people.
    Mr. Sires. Madam Secretary, I happen to have gone to 
Colombia for the swearing in of the new President. I have to 
tell you it was a great moment for me, a great honor to be 
there. But I thought that it was a little weak in terms of 
representation from our State Department that we have this 
neighbor, that we have this great ally, and yet there was a 
delegation of Congress people that went but we didn't see too 
many people from the State Department representing this 
country.
    And now I see that the President of the United States is 
going to fly from Brazil, right over Colombia, into El Salvador 
and is not stopping in Colombia. I have been hearing what a 
great neighbor, what a great friend, what a great ally Colombia 
is, and yet we seem to basically don't do the right thing. They 
have made remarkable changes in their country over the last few 
years. As you talk to different people--I go to Colombia just 
about every year--I see the changes. Isn't it about time we 
move on Colombia and Panama and some of these issues?
    Secretary Clinton. First, Congressman, thank you for going. 
The representation by the United States is only part of our 
engagement with Colombia and in particular with President 
Santos. We have maintained very close relations with him and 
with his government. We think he is doing an extraordinary job, 
and we are very proud that the United States has been a partner 
for the Colombian people now for a long time so that they can 
realize the benefits of the development that you have attested 
to.
    We are strong supporters of the Colombia and the Panamanian 
Free Trade Agreement. I would like to see those two, plus 
Korea, passed this year. I think it is in America's interest, 
and we are working very closely with the Colombians and with 
the Congress to try to make sure we can do that.
    Mr. Sires. Thank you very much, Madam Chair.
    Chairman Ros-Lehtinen. Thank you, Mr. Sires.
    Mr. Pence, the vice chair of the Subcommittee on Middle 
East and South Asia, is recognized.
    Mr. Pence. Thank you, Chairman.
    I want to thank the Secretary of State for her testimony 
and for her service to the country. It is good to see you back 
before the committee.
    I also want to thank you specifically for the efforts by 
the administration and your offices to further isolate Libya 
during a time of extraordinary tragedy in the streets, tragedy 
of which I think we are probably only partially aware. I want 
to continue to encourage and urge the administration to stand 
with those that are standing in that now-bifurcated country to 
use all means at our disposal to provide support and certainly 
associate myself with Mr. Royce's comments about isolating 
radio communications and would express appreciation for your 
efforts at Geneva and elsewhere to facilitate a coordinated 
international response, including a no-fly zone. Qadhafi must 
go. I am grateful to hear the Secretary of State and the 
administration take that position unambiguously.
    I also want to thank you for mentioning President George W. 
Bush's PEPFAR initiative in your testimony. We haven't gotten 
quite as much praise about that in the last couple of years as 
I think is warranted. Your comments are most welcome.
    Let me take you back. In your testimony today, Madam 
Secretary, on page 5 you make reference to the 16-percent cut 
for State and USAID as potentially being ``devastating to our 
national security.'' I allow you your opinion on that, of 
course.
    Let me say, though, that I am more associated with your 
statement on September 10, 2010, in which you were quoted as 
saying: ``Our rising debt levels pose a national security 
threat.'' It was in remarks that you made to the Council on 
Foreign Relations.
    A couple of facts, and then I would love to get your 
response to them.
    You used the number 16-percent cut, and I won't question 
your staff's arithmetic on that. We had a pretty long debate 
over the continuing resolution. But as we have broken it down, 
the projects that were eliminated in the base text, for your 
information, include $300 million in contribution to the Clean 
Technology Fund; $75 million eliminated in the Strategic 
Climate Fund; $55 million eliminated from the United Nations 
Population Fund, a fund that has been a source of great 
controversy; $5.75 eliminated from Cultural Preservation. 
Global Diversity Trust took a $10 million hit. You will forgive 
me, Madam Secretary, if I see none of those as devastating to 
our national security.
    Also, in terms of the reductions of programs, even after 
you factor in the programs that were eliminated and those that 
were reduced, as the chairman pointed out earlier there is 
still a rather significant increase in spending over 2008 
levels. And at a time when we are facing a $1.65 trillion 
deficit--a deficit contributed to by leadership of both 
political parties, let me stipulate--we are facing a $14 
trillion national debt, which could well double over the next 
10 years, I find myself more associating with your September 
comments before the Council on Foreign Relations than with the 
assertion that a 16-percent cut in a State and USAID budget 
that has been greatly expanded in the last 3 years is in fact, 
to use your words, devastating to our national security.
    So I raise that by way of asking for your response about 
where do we cut, where do we begin? If we can't do without 
programs like the Clean Technology Fund, the Strategic Climate 
Fund, the Fund for Cultural Preservation, if we can't suffer a 
modest reduction that still leave us above the 2008 levels, I 
would welcome your response to where we do begin to put our 
fiscal house in order.
    Because I was one of the members of this committee that 
helped to engineer a couple of times the passage of the PEPFAR 
program. Despite my cheerful conservative record, I believe 
that the compassion of the American people is expressed in the 
manner in which we come alongside other nations, particularly 
those in the two-thirds world, particularly those at the point 
of the need.
    But we are in trouble here. This country is going broke. We 
have to ask every department of this government--with the 
exception, I would allow, of people that are downrange in the 
field wearing our uniform and our veterans--I think we have got 
to look at every aspect of the government and say, Where can we 
save?
    So where is the right place to start in what remains at the 
time?
    Secretary Clinton. Congressman, I really appreciate your 
thoughtful question, and I recognize the dilemma. I guess my 
plea would be that we look hard at what we are doing that is 
part of national security. I would like to see what we are 
doing in the frontline states, for example, treated in the same 
way as the military overseas contingency operations are 
treated. Because what will happen is that the obligations that 
we face in Iraq, Afghanistan, and Pakistan, which are really in 
support of the courage of our military that has sacrificed so 
much, is either going to save the gains or lose the gains over 
the next few years.
    Chairman Ros-Lehtinen. Thank you, Madam Secretary. I do 
apologize.
    My Florida colleague, Mr. Deutch of Florida.
    Mr. Deutch. Thank you, Madam Chair.
    Welcome, Madam Secretary. I would like to add my voice as 
well to thanking you for your passionate defense of American 
values as you travel throughout the globe as our top diplomat.
    There were reports that surfaced last week about the IAEA 
quarterly report that has disclosed new information that Iran 
is exploring ways to militarize its nuclear weapons program, 
including ways to affix atomic weapons on long-range missiles. 
Further, the report stated that Iran is trying to move advanced 
centrifuges into Natanz that could reduce the amount of time 
needed to produce weapons-grade fuel. Iran is continuing to 
expand its production of nuclear fuel, according to the IAEA. 
They now possess over 8,000 pounds of low-enriched uranium, 
enough to build two to three nuclear weapons should they 
proceed with weaponization.
    The President stated in his first press conference as 
President of the United States that Iran's development of a 
nuclear weapon is unacceptable and that we have to mount an 
international effort to prevent that from happening. I would 
ask, Madam Secretary, as a start, if you could speak to the 
efforts of the administration and the State Department 
specifically in enforcing CISADA's successes to date, and then 
I will have a follow-up.
    Secretary Clinton. Thank you very much, Congressman.
    We have, we think, put together, thanks to the work of this 
committee and others, a very effective sanctions regime which 
we are constantly looking to improve, to tighten, to 
strengthen; and we welcome the advice from this committee 
particularly.
    When we passed CISADA, it was on top of the Iran Sanctions 
Act. Last fall, I imposed sanctions for the first time in the 
history of the Iran Sanctions Act on the Swiss-based, Iranian-
owned firm NaftIran Intertrade Company, so-called NICO. It was 
a major investor in a number of oil and gas projects in Iran. 
We also took the advantage of what was in CISADA to begin to 
sanction on human rights. We got more designations in addition 
to what we have already done coming.
    We have used CISADA to convince Shell, State Oil, ENI, 
Total, and Impex to withdraw from Iran and promise not to do 
any further business in Iran's oil sector. We have worked with 
a number of our partners to see these kinds of developments. A 
number of shipping companies have discontinued services to 
Iran. Several maritime shipping insurers have announced they 
will not provide coverage for Iran-bound vessels. Major energy 
traders have discontinued the sale of refined products to Iran.
    As a result of restrictions on gas exports, it has been 
forced to convert lucrative petrochemical plants to produce 
low-quality gasoline, costing them millions in revenue. They 
have reduced their gasoline subsidies, increasing the prices 
400 percent and 2,000 percent for diesel fuel. That has all had 
an amplifying effect on negative trends in the Iranian 
mismanaged economy. And we continue our international outreach. 
We have informed firms that we are going to add additional 
sanctions.
    So we think we have made progress with international 
support, but we have more that we think we need to do.
    Mr. Deutch. I appreciate that, Madam Secretary.
    Along those same lines, China recently announced a $2.5 
billion new investment in Iran's oil production. How is the 
Department dealing with China's continued evasion of sanctions 
and what leverage do we have with the Chinese to urge, if not 
force, compliance?
    Secretary Clinton. We actually have worked closely with the 
Chinese, but it is a never-ending effort. They are hungry for 
energy. They do not see Iran particularly as a threat to them. 
So they, after much diplomatic effort and arm-twisting, went 
along with the Iran Sanctions Act in the Security Council, but 
it is a constant, committed, determined effort for us to keep 
them abiding by the sanctions they agreed to. We literally work 
on it every day.
    Mr. Deutch. Finally, the Office of Terrorism Finance and 
Economic Sanctions Policy, the office that is charged with 
enforcing these sanctions, runs on, at least with respect to 
Iran, a staff of essentially four people. So the question I 
have is, won't we be jeopardizing national and international 
security if they don't have the appropriate funds, if the cuts 
go through, in order to enforce these sanctions that exist?
    Secretary Clinton. We have had such a terrific team both at 
the Treasury Department and in the State Department. I was the 
first person who set up a designated sanctions operation inside 
the State Department because we went to all this trouble to 
pass sanctions on North Korea, pass sanctions on Iran, and then 
we just didn't follow through the way I wanted to see. So it is 
important we keep doing that.
    Chairman Ros-Lehtinen. Thank you, Madam Secretary.
    I am pleased to yield 5 minutes to the chair of the 
Subcommittee on the Western Hemisphere, Mr. Mack of Florida.
    Mr. Mack. Thank you, Madam Chair; and, Madam Secretary, it 
is great to see you again.
    Just a quick statement. As I have listened to my colleagues 
on both sides and your opening statement, Madam Secretary, more 
money is not leadership. Leadership comes from within one's 
character and a clarity of purpose. Let me suggest that 
America's leadership lies in freedom and in an understanding 
that freedom is the core of all human progress. So as we talk 
about budget issues, I think it is important to understand that 
it is America's leadership in freedom that matters around the 
world.
    I was interested to hear your responses to my colleagues' 
questions in particular about the Iran Sanctions Act and how 
you have applied sanctions already. My first question is, if 
Venezuela is in violation of U.S. sanctions on Iran, will you 
act?
    Secretary Clinton. Yes.
    Mr. Mack. Have you seen the published, signed contracts 
that guarantee the transfer and liability of two cargos of 
gasoline from Venezuela to Iran?
    Secretary Clinton. We have seen a lot of statements and 
contracts coming out of Venezuela, but we don't see much 
follow-through yet.
    Mr. Mack. Madam Chair, I would like to submit this for the 
record.
    Chairman Ros-Lehtinen. Without objection.
    Mr. Mack. Assistant Secretary Valenzuela testified before 
the Western Hemisphere Subcommittee that Iran is in violation 
of sanctions. Let me ask you this question again. Will you act 
on this violation?
    Secretary Clinton. Of course, if there is a violation. 
Currently, our best information is that their relationship is 
largely diplomatic and commercial and has not moved in the 
direction they keep talking about. But we follow it closely. If 
there is evidence that they have violated the sanctions, we 
will come down on them.
    Mr. Mack. Well, again, I would suggest that you look back 
at the documents where I think it shows that they are in 
violation; and your own Assistant Secretary Valenzuela 
testified that they are in violation of the Act. As part of the 
Iran Sanctions Act--I think it is section 7 of the Iran 
Sanctions Act--that the Secretary of State may issue an 
advisory opinion explaining whether an action is in violation. 
And myself, the citizens of the United States, and people 
around the world are looking forward to your advisory opinion 
on whether you think Venezuela is in violation.
    I think it is pretty clear that Hugo Chavez supports 
regimes, dictators, the destruction of human rights. This is 
not someone that we want to align ourselves with. In fact, I 
was disturbed to hear that he was asking Qadhafi--or letting 
Qadhafi come to Venezuela. Whether that is true or not, the 
fact that he thinks that that is a good thing is shocking to 
me. So I look forward to your response on this. I think the 
evidence is pretty clear.
    The Assistant Secretary also talked about Chavez supporting 
international terrorist organizations. In fact, he agrees with 
me that Chavez is supporting international terrorist 
organizations. Do you believe Mr. Valenzuela's statement that 
Chavez is supporting terrorist organizations?
    Secretary Clinton. First, Congressman, I agree with your 
description of his statements, his rhetoric, which is deeply 
troubling and deplorable. We constantly look for evidence. We 
have a certain evidence standard that we have to meet that the 
Congress has set.
    Mr. Mack. Madam Secretary, I think it is out there, and we 
are dying for you to act. We cannot continue to wait. Action 
must be taken on this.
    Let me ask you another question, since I only have about 45 
seconds. Joe Kennedy, who draws about a $600,000 salary from 
his supposed nonprofit Citizens Energy, is a public relations 
shield for Hugo Chavez. We all know the record of Chavez, but 
Joe Kennedy continues to promote this dictator while lining his 
own pockets. I have condemned Joe Kennedy. Are you prepared to 
condemn Joe Kennedy for continuing to support and be a shill 
Hugo Chavez?
    Secretary Clinton. I am not going to condemn him. I have no 
information that leads me to that conclusion. But we will get 
back to you, and we will certainly brief you and your staff on 
what we actually know. And if you have additional evidence on 
Chavez----
    Mr. Mack. Madam Secretary, on Joe Kennedy, all you need to 
do is watch the nightly news and see the commercials that he is 
running in support of Chavez.
    Chairman Ros-Lehtinen. Thank you, Mr. Mack.
    I am pleased to yield 5 minutes to Mr. Cardoza of 
California.
    Mr. Cardoza. I would like to thank my friend, the 
chairwoman of this committee, and thank her for the great job 
that she does.
    Madam Secretary, thank you for being here with us. Thank 
you for your continued outstanding service to our country.
    Secretary Clinton. Thank you.
    Mr. Cardoza. I am a huge fan; and, because of that, I am 
going to actually allow you to answer the question that I ask.
    Madam Secretary, at least 70 people were killed during an 
attack last October in Our Lady of Salvation Church in Baghdad, 
making it the worst massacre of Iraqi Christians since 2003. 
Less than 2 months later, extremists bombed the homes of more 
than a dozen Christian families in Baghdad as well. On New 
Year's Eve, 23 people were killed by a suicide bomber in 
Alexandria, Egypt, while coming out of Mass at St. Mark's and 
St. Peter's Coptic Church. Since these tragic incidents, the 
Middle East has been rocked by wide-ranging democratic protests 
and regime changes, as we have seen in the last few weeks. How 
has this ongoing instability affected the already heightened 
risk to vulnerable religious minority groups like Assyrians, 
Jews, Copts, and others?
    Secretary Clinton. Congressman, thank you for asking that 
question. I think this has not gotten the level of attention 
and concern that it should. We immediately went into action 
when the bombings took place in Baghdad. Our Ambassador was 
deeply involved with the government, making sure that there was 
protection and security. The Ambassador went to Mass in order 
to show solidarity with Iraqi Christians. But there is no doubt 
that Christians and other minority groups are feeling under 
pressure and are leaving countries from North Africa to South 
Asia because they don't feel protected.
    I think we need to do much more to stand up for the rights 
of religious minorities. And, obviously, I am deeply concerned 
about what happened to the Christians in Iraq and the 
Christians in Egypt. I am also concerned about what happens to 
minority Muslim groups in Pakistan and elsewhere. So you have 
raised an issue that I think is one of deep concern, and we 
have to be speaking out more, and we have to hold governments 
accountable.
    When I spoke with the prior Egyptian Government after the 
Alexandria bombing, they expressed the same level of outrage 
that I felt. They said that the Copts are part of Egyptian 
history. As you recall from Tahrir Square, there was a lot of 
interfaith efforts with Copts and Muslims worshipping together. 
Let's hope that continues and let's do whatever we can to make 
that the future, instead of what I am fearful of, which is 
driving out religious minorities.
    The final thing I would say on that, because it is an issue 
I have paid a lot of attention to, we want to protect religion 
and religious believers, but we don't want to use some of the 
tools that other countries are proposing, which is to 
criminalize defamation, criminalize in the broadest possible 
definition blasphemy, and then use it to execute, harass, and 
otherwise oppress religious minorities.
    So we have to come up with an international consensus about 
what we are going to do to protect those who are exercising 
their conscience.
    Mr. Cardoza. Thank you very much.
    My second question deals with the events again that have 
highlighted the unique role Israel plays in the Middle East as 
a reliable, stable, and democratic ally that shares our values 
and interest. Likewise, there is no question that the tumult 
throughout the region and especially in Egypt raises strategic 
questions for Israel.
    My question is this. Is the administration in close contact 
with the Government of Israel about the impact of recent events 
on Israel's QME and possible new threats it faces? In light of 
the current uncertainty, is the administration reconsidering 
the massive sales of advance weaponry in the region, some of 
which were already notified, in order to protect the quality 
military advantage?
    Secretary Clinton. Congressman, first let me say we are in 
constant, probably daily, contact with our counterparts in the 
Israeli Government at all levels of our Government.
    Secondly, the Qualitative Military Edge is absolutely a 
commitment that this administration has followed up on. 
Secretary Gates has said publicly and privately on numerous 
occasions that in the last 2 years we have probably done more 
to enhance Israel's defense than at any previous period. This 
administration has delivered for Israel. It is not maybe as 
well known because it is both public and classified, but I want 
to make sure that members of the committee know that this 
administration time and again has made sure that Israel has 
what it needs to protect itself.
    Of course, we discuss with Israel other actions that we 
take in the region. I think right now we are all in agreement 
about what we need to be doing.
    Mr. Cardoza. Thank you, Madam Secretary.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Cardoza, 
Madam Secretary.
    Mr. Fortenberry, the vice chair of the Subcommittee on 
Africa, Global Health, and Human Rights, is recognized for 5 
minutes.
    Mr. Fortenberry. Thank you, Madam Chair; and thank you, 
Madam Secretary, for joining us today. I just read your remarks 
to the Human Rights Council from yesterday. Well done.
    Madam Secretary, as we consider the administration's nearly 
$61 billion in International Affairs budget request, I believe 
we must balance two factors: First is the threat posed by 
unprecedented levels of national debt; second, with the 
essential necessity to engage with other nations for our 
national security purpose while also upholding our noblest 
ideals. But our primary responsibility is to the American 
people. They must know that the Federal Government is wisely 
spending their tax dollars and ensuring that our programs 
reflect their core values.
    I think we also must do the right thing by standing with 
those throughout the world who need and merit our support. The 
historic upheavals in recent weeks in the Middle East 
demonstrate before the world an operative American principle 
that the legitimacy of government derives from the consent of 
the governed. Our policies must reflect this Nation's enduring 
commitment to legitimate government, to human dignity, as well 
as to economic engagement for the well-being of persons.
    Madam Secretary, for decades, U.S. policy has assumed that 
political and human rights gains would inevitably flow from 
economic liberalization. That assumption, however well-
intended, sometimes is lacking. It has it its drawbacks.
    Look at China, for instance. China gives cover to North 
Korea's nuclear weapons programs; China trades with Iran; China 
does not respect human rights, including the barbaric practice 
of forced abortion and sterilization. China is probably jamming 
coverage of this hearing today, and they have jammed coverage 
of the events throughout the Middle East.
    Let's look at Iran. In Iran, human dignity is trampled in 
the name of religious dictatorship and autocracy. Iran is also 
seeking aggressively nuclear weapons capability, and it crushes 
dissent.
    So, Madam Secretary, three questions.
    Is it time for the United States and members of the 
responsible international community to speak boldly, clearly, 
and frequently in support of the people of Iran who are seeking 
a more just and moderate government? Why do people have the 
right to live free from fear in Tripoli but not in Tehran?
    Secondly, is it time for the United States to singularly 
elevate the role of human rights, universal rights, in our 
bilateral relationship with China?
    And, third, as you touched upon in the last question, what 
will the administration do to emphasize to governments in 
transition throughout the Middle East that religious freedom is 
a universal and indispensable aspect of a vibrant democracy?
    Secretary Clinton. Well, thank you very much, Congressman. 
Thank you for your leadership on these important issues. I 
agree that it must be a constant and loud chorus coming from 
not only the United States but like-minded countries in favor 
of human rights in Iran.
    I do think that we have seen the active opposition crushed 
and oppressed. Our latest information is that Mousavi and 
Karoubi may be imprisoned. There is dispute about that, but 
they are certainly under house arrest, if they are not actually 
in prison.
    What many had advised before, that we not throw ourselves 
into the middle of their legitimate uprising, may be moot. 
Therefore, as I said yesterday, as a statement that I issued a 
few days ago, we have to go chapter and verse about everything 
that Iran is doing that abuses the rights of its own people and 
exposes their hypocrisy as they try to somehow identify with 
the legitimate aspirations for democracy and human rights in 
the region.
    Mr. Fortenberry. This is a shift or new emphasis in our 
policy?
    Secretary Clinton. We have always taken that position, but 
we have tried to modulate it to some extent, Congressman, 
because of the warnings we were receiving from within Iran and 
outside Iran. You speak to some of the same experts who were 
worried that the regime would basically paint everybody who 
opposed them as American stooges. So we have done a lot of 
messaging, but I think it is fair to conclude that at this 
point in time the more we can point out their double standard 
and their hypocrisy the better off we will be.
    Secondly, on China, we always raise human rights. I raise 
it all the time. The President, I know, raises it. I was jammed 
in 1995. My Internet speech was jammed a few weeks ago. So I am 
well aware of how they try to control information. We will 
continue to raise these issues, and we will continue to try to 
help those who are inside.
    Chairman Ros-Lehtinen. Sorry to jam you, Madam Secretary, 
and interfere with the transmission as well.
    Mr. Chandler of Kentucky is recognized.
    Mr. Chandler. Madam Secretary, I want to join with some of 
my colleagues up here and thank you very much for your service. 
I think that your representation of our country is carried out 
very thoughtfully, very ably, and with a great deal of class. I 
thank you for that.
    By the time you get to where I am in the order here of 
questions, most of the important questions have been asked. But 
I actually have a couple that I think are particularly 
important.
    With what is going on in Tunisia now, I think it is safe to 
say that this is one of the most important times in that 
country's history. It is also a country that has been a very 
important ally of ours. And yet our budget requests and what is 
happening with our budget suggests that we are getting ready to 
administer an enormous cut in aid to Tunisia, I think from the 
neighborhood of $22 million down to $6 million. I am concerned 
about that, and I would like you to address what kind of 
message that sends at this critical juncture.
    Secondly, Syria. There are those who believe that peace 
with Syria is absolutely essential and would be a tremendous 
turning point in the peace process, and there are those who are 
of the school of thought that that is a possibility and that it 
would be beneficial to the Bashar Assad regime. There are 
others who believe that Syria has--well, that the Alawi 
minority government there, the regime there, is utterly 
dependent upon casting the United States and Israel in the role 
of the enemy, that their regime maintenance depends upon it. 
And in fact the actions of the Syrians and their rhetoric seems 
to bear this out.
    Obviously, they have spent a great deal of time in efforts 
to have a stronger alliance with Iran. They have been helping 
terrorists across the board, it seems like, from Hezbollah to 
terrorists within Iraq to Palestinian terrorist groups.
    What do you think about the Syrian situation? Do you see 
any signs that the Syrians are improving their behavior? And 
has Syria taken any steps to improve its relationship with us?
    Secretary Clinton. Thank you, Congressman.
    If I could, before Congressman Fortenberry leaves, I just 
wanted to make sure the record reflects that Function 150, 
Congressman, is $50.9 billion. That includes Treasury money, 
MCC, Peace Corps. State-USAID is $47 billion. Then the overseas 
contingency operation is $8.7 billion. So we get a total of $55 
billion. I just wanted to make sure that we are talking apples 
and apples here. Because you are right that there are other 
funding streams. Treasury supports our commitments to the World 
Bank, obviously, the Millennium Challenge Corporation, Peace 
Corps, and then other small agencies.
    Thank you, sir.
    Congressman, first, on Tunisia, I think Tunisia has to 
work. Tunisia is a much smaller country. It is in many ways a 
more middle-class country. It has a great potential because of 
the way that it has dealt with its transformation, and we need 
to be on the ground helping. So I agree with you that cutting 
aid to Tunisia right now would be maybe penny wise but pound 
foolish.
    Although there are Europeans who wish to assist in Tunisia, 
the Tunisians, as I heard directly from the Tunisian Secretary 
of State for Foreign Affairs yesterday in Geneva, the Tunisians 
remember when the United States stood for their independence in 
the 1960s. They remember that many of our European friends were 
colonizers in North Africa. They want the United States there 
helping to support them in their transition to democracy. We 
could make a real model in the Middle East by assisting 
Tunisia.
    Mr. Chandler. You need to amend your budget request.
    Secretary Clinton. Well, we do. We do. But first I have got 
to figure out what I have got left after you guys get done with 
me. I keep putting up these warning signals.
    With respect to Syria, you outlined very well the differing 
currents that are at work inside Syria, in Syria's relationship 
with the region, particularly Syria's relationship with Israel. 
Obviously, we would support anything that Israel would decide 
is in Israel's best interest in dealing with Syria.
    We caution and raise a lot of concerns about what we see as 
Syria's relationship with Iran, Syria's relationship with 
Hezbollah. That is not in Israel's interest, it is not in 
America's interest, and, frankly, we don't think it is in 
Syria's long-term interest.
    So we sent back an ambassador, as you know, because we 
think it is better to be on the ground talking, picking up 
information, conveying messages, and we hope that we will get a 
clearer view forward.
    Chairman Ros-Lehtinen. Thank you very much, Madam 
Secretary.
    Mr. McCaul, the vice chair of the Subcommittee on the 
Western Hemisphere.
    Mr. McCaul. Thank you, Madam Chair; and, Madam Secretary, 
welcome.
    Two questions, one with respect to Iran, one and with 
respect to Mexico.
    You mentioned Israel prefers stability over a power vacuum, 
and I agree with that. I think what we are seeing in the Middle 
East is a power vacuum; and the question is, who is going to 
fill that void? Is it going to be filled by a secular movement 
or by forces like the Muslim Brotherhood? Or, as we look at 
Iran, is Iran going to take this opportunity to fill the 
vacuum?
    We know two Iranian vessels were in the Suez Canal, the 
first time since 1979. We support emerging democracies. I think 
that is the correct policy for this country. And we are 
supporting the forces in Egypt and Libya. But when it comes to 
Iran, who has, as you mentioned earlier, oppressed its own 
people and fired tear gas and shot its own people, at least 
there is the appearance that the administration has been sort 
of silent on the issue, and yet I think there is a golden 
opportunity for us at this point in time to support the 
resistance movement in Iran. Why aren't we doing this more 
forcefully?
    Secretary Clinton. Well, Congressman, I would argue that we 
are, that we are doing it forcefully, in many ways, and we will 
continue to do so.
    But I want to underscore the first point you made, which is 
that there is no doubt in my mind that if we are not present, 
and present in resources, not just in rhetoric, not just saying 
what we are for, but being able to deliver on that, others will 
fill that vacuum. The Middle East abhors a vacuum. We know that 
from long experience.
    So while we message against Iran, if that is all we do, we 
are not going to be in the game. We have got to be on the 
ground. That is why we need diplomacy and development to be 
viewed as national security, so that when these young people on 
the street say, Well, how do we write a Constitution?, it is 
the United States and our allies who are there to help, not the 
Iranians.
    But if anybody doubts that, despite all of the sanctions 
and the best efforts of the international community to isolate, 
condemn what Iran has done, that they are not in there every 
single day with as many assets as they can muster trying to 
take hold of this legitimate movement for democracy, you are 
sadly mistaken. We are in a competition. I just stress that 
over and over again, that we have got to be there. We have got 
to fight back.
    Mr. McCaul. I agree with you. I think that diplomacy with 
Iran, in my view, is naive. I think the best thing we can be 
doing, both from the State Department and from an intelligence 
effort, is to do everything within our power to support these 
freedom fighters who want to overthrow the ayatollah and the 
mullahs who are oppressing these people.
    Moving to Mexico, we had two U.S. law enforcement agents 
for the first time in 25 years shot in an ambush with 83 rounds 
from an AK-47 after they have said they were American 
diplomats. Now the Mexican Government seems to be saying it is 
a case of mistaken identity. I personally don't buy that. I 
will take the testimony of our agent over the three Zetas now 
in custody who are talking about the incident.
    My question with respect to the State Department is 
several. The Merida Initiative that we passed in the Congress 
had $1.3 billion to provide primarily military assistance, and 
yet only 25 percent of that has gone to that assistance in 
Mexico. The rest seems to have been bottlenecked up in the 
State Department. I was hoping you could explain why and 
perhaps give me your assurance that we are going to try to move 
that money as quickly as possible.
    Two more quick items. Extradition. I hope this 
administration fights hard to get these killers extradited to 
the United States.
    Then, lastly, there is a 1990 agreement that prohibits our 
law enforcement in Mexico when we put them down in a war zone, 
as President Calderon calls it, and we don't allow them to 
carry weapons. I would like this administration to revisit that 
agreement in light of the new conditions down in Mexico.
    Secretary Clinton. Thank you for raising Mexico, 
Congressman. Because, again, this is an area that doesn't get 
enough attention and there it is, right on our border.
    The U.S. Congress has appropriated $1.5 billion since the 
Merida Initiative began in Fiscal Year 2008, and by the end of 
2011 we expect to have obligated over half of this funding. 
Your question is a fair one: Why does it take so long? The 
complexities of negotiating technical requirements with Mexico, 
what we expect to get for our money, what we expect to get from 
them when we give them our money, and the need to ramp up 
staffing to support a program of this magnitude has taken time. 
But we have also decided that what works best is providing 
professional training, which we are doing for 4,500 new Mexican 
police investigators, training for 3,000 Mexican prosecutors. 
We will give you have chapter and verse about what we are 
doing.
    Chairman Ros-Lehtinen. Thank you, Madam Secretary.
    I am pleased to yield 5 minutes to Mr. Higgins of New York.
    Mr. Higgins. Thank you, Madam Secretary. First of all, 
thank you for your work on behalf of America throughout the 
world. You should know that Buffalo still misses you very much.
    The two most powerful forces in the world today are youth 
and technology. We understand in the Arab world 60 percent of 
the population is under the age of 30. They call it the youth 
bulge; they call it the youth quake. And they are empowered by 
new media and not only for organizational purposes but for 
aspirational purposes as well.
    When you think about the extraordinary convergence of an 
82-year-old man living in his modest home in Boston who wrote 
books and pamphlets on civil resistance, on nonviolent 
resistance, his work is disseminated throughout the entire Arab 
world as a primary source for their organizational efforts. So 
it says that America has two unique roles here. One is clearly 
aspirational. Because this individual from America, this 82-
year-old man, his experiences in his writings were borne out 
from his experience in the civil rights movement of this 
country, and that that is now serving as a beacon for the Arab 
world I think says extraordinary things about the times that we 
are living in and the extraordinary opportunities that are 
before us.
    The other thing is America's role in what comes of the 
Middle East and these revolutions. Everybody is asking the 
question now: Will Egypt be more like Iran or will it be more 
like Turkey? And we have a role in that, as you have stated, 
with this budget.
    So when you hear folks talking up here about America's role 
in helping to influence what the next steps are in Egypt and at 
the same time support a continuing resolution that cuts 30 
percent in a development assistance account that specifically 
supports democracy in places like Egypt, we can't have it both 
ways. A lot of bad things can happen to the world without 
America, but not a lot of good things can happen in the world 
without this country as well.
    So I just ask you to respond to that.
    Secretary Clinton. Well, Congressman, first, say hello to 
every one in Buffalo and tell them I miss them, too.
    I think you made a very important point. When I became 
Secretary of State, I looked at all of the research analysis I 
could find, and two things stuck out to me. One, that most 
people, whoever they are and wherever they live and under what 
kind of regime, want the same thing: They want a good job with 
a good income that gives them and their kids a better future. 
That is universal. And so focusing on that became one of my 
goals, as to how we help to lift up the bottom.
    Secondly, that we have this huge youth bulge, not just in 
the Middle East--in Latin America, in Asia--and when you look 
at countries where 25, 35, sometimes 50 percent of the 
population is under the age of 25, they are totally ill-
prepared to educate those people, provide them health care, 
guide them to the kind of future that we would like to see for 
them, which happens to be in our interest as well.
    So we have focused on trying to figure out how best to 
message to young people. That is why I set up this unit inside 
the State Department about how we use social media, how we try 
to connect. There I am doing Web chats. We are trying to do 
everything we can to go where people are getting their 
information and to put the American story out there.
    We did such a great job during the Cold War. American 
communication about democracy and freedom was universal. And 
then the Berlin Wall fell and we all said, Okay, great, we 
don't have to do that anymore. And we have slowly but steadily 
receded from the information communication competition.
    Others are filling that. As I said, they are filling it 
with Aljazeera, they are filling it with Chinese English, they 
are filling it with Russian English, et cetera. I think that is 
one arena we cannot afford to be out of. Maybe to some it looks 
like a luxury, but to me it undergirds our message.
    I can make a speech, a Member of Congress can go to the 
floor and make a speech and say we stand for freedom. That is 
one speech which will probably not even be heard by the vast 
majority of young people we are trying to influence. But if we 
have that message going out day in and day out on new media, 
old media, our diplomats, our development experts, everybody is 
out there saying the same thing about who we are as Americans 
and what we stand for, we can really infuse this moment of 
transformation with American values and the American spirit and 
the American experience.
    As you can tell, I feel passionately about it because I 
believe in it. That is what I was raised on. That is what I saw 
as a young girl. When Congressmen McCaul or Fortenberry said 
diplomacy with Iran is naive, we always had diplomacy with the 
Soviet Union while we were sending messages behind the Iron 
Curtain every minute of every day about what the alternatives 
were. That is what we need to be doing.
    Chairman Ros-Lehtinen. Thank you so much, Madam Secretary.
    Judge Poe, the vice chair of the Subcommittee on Oversight 
and Investigations.
    Mr. Poe. Madam Secretary, thank you for being here, and 
thank you once again for the time that Deputy Secretary Corbin 
spent with me, over an hour, talking about a lot of issues. I 
will try to keep it down to 5 minutes, which is not really fair 
for those of us in the south who talk slower.
    Secretary Clinton. But I don't need a translator.
    Mr. Poe. You don't need a translator.
    I believe, like you, that deep down in our soul everybody 
in the whole world has this burning desire for freedom. However 
you want to call that or define it, that is the way people are. 
I believe that it exists probably as well as anyplace in the 
country of Iran. We have a lot of Americans here who are of 
Iranian descent. Many of them have family at Camp Ashraf. Many 
have lost families who have been killed in Camp Ashraf. They 
have family in Iran. I believe those young people in Iran have 
that spirit of freedom.
    I have a question that I certainly don't know the answer 
to, but the United States throughout history takes the position 
usually that we support a country and then eventually we 
support the rebels or those who want to come in and take over 
that country. We have made that decision in Libya. I think the 
administration used actually the term ``we support the 
rebels.'' Sometimes we do, and sometimes we don't.
    I think there is no greater tyrant on Earth than the little 
fellow from the desert, Ahmadinejad, and the way he treats his 
people, the way he has declared war really on everybody. When 
do we get to a point as a country in making these decisions 
like we did with Libya? When do we get to the point that we 
say, You have got to go? We made that decision in Libya. When 
do we make that decision in Iran, you have got to go?
    Secretary Clinton. Well, Congressman, I think we have to 
support those who are struggling and fighting for their own 
freedom inside countries, and we do that in Iran. But it is 
unfortunate that this regime has exercised such oppression 
against its own people, has done everything possible to destroy 
the opposition. So we do support and we will continue to 
support and we will be very vocal in our support. But we also 
look at those moments, those hinges in history, where there is 
an adequate critical mass of people that are willing to stand 
up for their own rights.
    Unfortunately, in many countries--it took a long time in 
the Soviet Union, as you know--and then countries began to move 
and we were there with support for them. We see that now in the 
Middle East, in North Africa. Iran is a tougher case, but we 
are going to do everything we can to support those who want 
that freedom.
    Let me just for the record say, too, because there have 
been several references during the hearing to the MEK. I know 
there are many representatives here in the audience. As the 
committee is well aware, on July 16, 2009, the district court 
here in DC ordered the Department to allow the MEK to respond 
to unclassified portions of the administrative record in 
reviewing the designation of being on the foreign terrorist 
organization list. And, as such, we are again reviewing the 
designation in accordance with the court's decision and 
applicable law, and this review will result in a de novo 
decision concerning the designation of the MEK
    Mr. Poe. When do you think you will have that decision?
    Secretary Clinton. It is proceeding. These are very 
important considerations and reviews. As soon as we can, we 
will make such a decision, Congressman.
    Mr. Poe. Myself and others have met with State Department, 
CIA in classified briefings. And I would just encourage the 
State Department, based on everything I know, to make that 
decision.
    I am one that, of course, thinks we ought to take them off 
the list. I would hope Congress wouldn't have to make that 
decision. I hope the State Department would. But I would ask 
that, if any information comes forward either way, that the 
Department of State would share that with us in a classified 
briefing so that we have that information.
    The last question I was going to comment on and concern was 
the residents of Camp Ashraf. They are nervous. Their relatives 
are nervous because of the way that time is really not, in my 
opinion, on their side. How do you, just your opinion, think 
this is going to play out once we are gone, the people in Camp 
Ashraf? Are they going to be moved from the border, go to Iran, 
go to Europe? How do you see that playing out?
    Secretary Clinton. First, let me say that we monitor this 
situation very closely. We try to investigate all of the 
assertions that are made. We know that adequate food and fuel 
under our supervision and pushing gets in. But we also know 
there are constant provocations that exist. So we are in a 
daily dialogue with the Government of Iraq, and we will 
continue to do everything we can to protect them.
    Chairman Ros-Lehtinen. Thank you, Madam Secretary.
    Mr. Keating is recognized for 5 minutes.
    Mr. Keating. Thank you, Madam Secretary. Thank you in light 
of your enormous schedule and where you were yesterday and 
still taking the time this morning to address issues at our 
committee.
    A couple of weeks ago you laid out our country's priority 
on Internet freedom around the world, and I join you certainly 
in those efforts to maintain an Internet meeting place that 
promotes the greatest possible benefits that can be really for 
democracy around the world. I liked your analogy in your speech 
about the Internet has become the churches and the union halls 
of yesteryear.
    We saw in Egypt and Iran, using technology from companies 
based in the United States, what a tremendous element it can be 
to advance democracy. I am certainly pleased that you created a 
new Office of the Coordinator of Cyber Issues.
    Along those lines, I wanted to address one issue.
    It has a tremendous capacity for democracy and freedom, but 
also therein lies a great danger, I believe. And I am working 
on legislation right now to establish end use agreements for 
sensitive technology that we export abroad. We have to make 
sure that the government clients like Egypt, Saudi Arabia, and 
Pakistan understand that American innovation should not be used 
for violence.
    So along those lines I would like to ask you if you 
anticipate the new Office of Coordinator of Cyber Issues to 
play a role with the private sector in determining best 
practices so that U.S. technology is not used abroad, and I 
would love your thoughts on any creative solutions we can 
employ to advance our innovation without stifling progress 
toward democracy.
    Secretary Clinton. Well, thank you for that question, 
because it is something that no Secretary of State has had to 
address before. And here we are talking about it and realizing 
that it is as important as the town square or any other setting 
for expression and assembly. We would be pleased to work with 
you and our new Office of Cyber Security to look at how we 
would create such end use agreements.
    A lot of the technology that we manufacture, that we invent 
here in the United States has dual uses, even triple and 
quadruple uses. It is difficult to know exactly how an end user 
will use it. So I think this deserves some very careful 
attention, and we would welcome your ideas about that.
    We also are working hard to come up with new technology all 
the time. We are incentivizing entrepreneurs, tech companies, 
and innovators to help us figure out how to help people get 
around whatever end use. Because we could take any kind of 
technology and we could say, you know, that may be okay to go 
through, and then some clever government figures out how to use 
it against people.
    So circumvention technology is a part of our ongoing 
Internet freedom agenda. We have funded significant 
advancements in the development of about a dozen circumvention 
technologies in the last few years. But, in itself, that is not 
enough. We also have to be looking at what Egypt did, which is 
unprecedented--shut down the whole Internet.
    So there is a lot of work still ahead of us, but it is an 
area that the United States is uniquely positioned to lead on, 
and it helps us get through all of those nets of repression and 
censorship and shutdown that governments are using to keep 
their people down and in place.
    Mr. Keating. Thank you, Madam Secretary.
    Madam Chair, in view of the lengthy morning, I will yield 
the rest of my time.
    Chairman Ros-Lehtinen. Second Man of the Year. Thank you.
    Mrs. Schmidt of Ohio.
    Mrs. Schmidt. Thank you, Madam Secretary, for being here.
    I would like to focus my attention first on Sri Lanka and 
second on Colombia, if I have time.
    As you are aware, in 2009, thousands of Tamils were killed 
in Sri Lanka. They are being housed right now in subhuman 
conditions without proper food, plumbing, water, and creating 
life-threatening events. With the geographic location of Sri 
Lanka and the government's placing of this ethnic group in 
these deplorable conditions, with the historic ties that the 
Tamils have had with the United States, shouldn't the U.S. lead 
in taking steps before either the U.N. Human Rights Council or 
the U.N. Security Council in asking Sri Lanka what the grounds 
were for these mass killings?
    And, secondly, I know that you received letters from people 
in the House and the Senate asking what steps, if any, the 
United States is taking as the U.N. Secretary General maps out 
his agenda for this year regarding this group that appears to 
be being wiped out by those in charge.
    Secretary Clinton. Congresswoman, thank you very much.
    Initially, following the end of the war, the United States 
assistance focused on humanitarian needs--food, aid, shelter, 
and the like. We also put a considerable effort into de-mining 
because of what had been done in the north during the war.
    As the humanitarian needs began to recede, we have focused 
on working with the Tamils and the Sri Lankan Government on 
reconciliation, on representation, providing training on human 
rights to the Sri Lankan military, helping to address 
shortcomings in their criminal justice system and law 
enforcement, and trying to assist them on resettling and 
reintegrating the people who were displaced by the 26-year 
civil war. We have also been trying to support enterprise in 
the north so people can get back to making a living and 
supporting themselves and their families.
    We are constantly watching what is happening in Sri Lanka. 
We share your concerns that the end of this very bloody 
terrible war that lasted for so long be put behind Sri Lanka so 
that they can move forward and have a society that answers the 
needs of all of their people.
    There is still a ways to go. There is this reconciliation 
process, this commission that has been set up. I have 
personally spoken with leaders of Sri Lanka to express strong 
American support for it. But this is a matter we keep close 
look on because we share the concerns you have raised.
    Mrs. Schmidt. Thank you.
    Now I would like to focus on Colombia. As you well know, it 
has been a long time since we have had a Colombian Free Trade 
Agreement. Just yesterday, in my own district, I spoke before 
about 60 folks in the greater Cincinnati, southern Ohio area, 
business people that have economic relations with Colombia and 
would like to have a free trade agreement, and yet they are 
saddled with something much less. When will this administration 
push for that agreement, not just for Colombia but for Panama 
and other places in the Western Hemisphere?
    Secretary Clinton. Congressman, we strongly support action 
on the three trade agreements that have been negotiated but not 
yet finalized. Korea has been, but both Colombia and Panama are 
finishing up. We have urged that both our Government and their 
governments move expeditiously. We would like to submit them to 
this Congress for action.
    We think that there could be a grand bargain. There is a 
lot of work. We have not continued the trade adjustment 
assistance, which I know affects some people in your district. 
We have not continued the generalized trade preferences, the 
Andean trade preferences.
    I think if we look at all the opportunities we have and 
remember that the Western Hemisphere is our biggest trading 
partner and as we see what is going on in the world, the more 
we can work with our friends to the south and really help them 
increase their economies, create jobs here, create jobs there, 
enhance economic commerce and trade, the better off we will be.
    So as soon as we can get final signoff on Colombia and 
Panama, we would like to be moving forward with them, as well 
as with Korea.
    Mrs. Schmidt. Thank you.
    Madam Chairman, I will yield back.
    Chairman Ros-Lehtinen. Thank you. Woman of the Year.
    Mayor Cicilline of Rhode Island.
    Mr. Cicilline. Welcome, Madam Secretary. It is a great 
honor to welcome you to our committee and to have the 
opportunity to discuss many of these important foreign policy 
issues. I thank you for your brilliant and wise leadership. Our 
entire Nation is in your debt.
    I just want to ask one question and make one plea. As you 
know, my district has a very vibrant Cape Verdean community, 
and I am very concerned about potential cuts to the Cape 
Verdean Millennium Funding. That has been very important in 
helping to transform the Cape Verdean economy; and I would just 
ask that, as you review that, you pay close attention to it and 
recognize how important it has been to the Cape Verdean 
community, certainly in my district.
    I recently returned this past Sunday from Iraq and 
Afghanistan; and I think, while there is some division in this 
country about what our role should be in Afghanistan and 
whether a protracted presence in that part of the world is wise 
policy, every military leader that we met with stressed the 
importance of both the diplomatic and development prongs of our 
strategy there and really confirmed everything you shared with 
the committee today.
    I have grave concerns about the level of expenditures that 
we will have to sustain in Afghanistan in road building and 
schools and police officers at a time when we are cutting those 
very same investments here in our country, but I think we are 
going to have a policy debate on that long term in the Congress 
of the United States.
    But one thing I learned on the trip and I learned from the 
briefings that we had--and your foreign policy staff was 
spectacular--is the growing threat of Pakistan in this region 
of the world. And I wonder if you would speak to how we balance 
our interest in strengthening our relationship with Pakistan 
and at the same time respond to what is clearly a growing 
threat as it becomes a sanctuary, particularly along the border 
of Afghanistan.
    I invite your thoughts on that
    Secretary Clinton. Thank you so much, Congressman. I am 
glad you went to Iraq and Afghanistan. I appreciate the kind 
words for our national security team, military and civilian 
alike.
    I share your enthusiasm about Cape Verde. They did an 
excellent job with the Millennium Challenge Account, and we 
want to see them continue the second compact.
    Pakistan has to be put into historical context whenever we 
talk about it in the United States Government. I do think it is 
fair to say that our on-again, off-again relationship going 
back 30, 40 years has been to our detriment.
    We enlisted the Pakistani people and government in our 
efforts to push out the Soviet Union out of Afghanistan, which 
was one of the contributing factors to the fall of the Soviet 
Union. Then we accomplished that and we left--and we left them 
with jihadis and with drugs and awash in guns and money. 
Unfortunately, we saw some of the results that flowed from 
that.
    We also had a difficulty with them regarding what was 
called the Pressler Amendment. Admiral Mullen is fond of saying 
that every single soldier in the Pakistani military knows what 
the Pressler Amendment was and not a single American soldier 
does, because it had such an impact on ending training and 
ending mil-to-mil relationships--and, again, to our detriment.
    There is nothing easy about this, and striking the right 
balance is a constant calculation. But we think that we have no 
way forward other than to continue to engage both civilian and 
military with the Pakistanis.
    If you look at what they have done since the first time I 
testified before this committee in early 2009, and I said then 
that the Pakistanis were ceding territory to the terrorists. 
They were not going after them in their own country with their 
own military. That has been 180 degrees. They have taken a lot 
of losses. They have pursued those extremists who are attacking 
them. They have worked with us to go after extremists who are 
attacking our troops and our interests.
    But it is a constant calculation about how best to work 
with the Pakistani Government. They have a lot of internal 
pressures that make it difficult for them. But I would say, 
sitting here testifying before this committee, that in the last 
2 years we have made progress, but we have a long, long way to 
go before we can see the kind of stability that we think is 
necessary for the region and for American interests.
    Mr. Cicilline. Thank you. Out of deep respect for the 
Secretary and in my ongoing effort to curry favor with the 
chairman, I yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you so much. I just love it 
because we are going to get all of our members to ask their 
questions.
    Mr. Rivera of Florida.
    Mr. Rivera. Thank you, Madam Chairman.
    Madam Secretary, thank you for your distinguished service 
to our country. The last time I saw you was down at the 
Biltmore in Coral Gables. I hope you will come visit us again 
very soon.
    My question is regarding our Government's reaction to the 
treatment or mistreatment of American citizens abroad, 
particularly the treatment of the Cuban Government to American 
citizens. Last week marked the 15th anniversary of the Brothers 
to the Rescue shoot-down in which four American citizens were 
murdered over international airspace. I am wondering, did the 
State Department or the White House issue any statement marking 
that day and condemning that heinous act?
    Secretary Clinton. I will have to check on that, 
Congressman. I remember it well. Your description of it is 
accurate. It was a terrible, terrible injustice and murder of 
four Americans who were peacefully protesting the Cuban regime.
    Mr. Rivera. I appreciate those remarks.
    I also want to ask you about American citizens who could 
avail themselves of the Cuban Liberty and Democratic Solidarity 
Act, otherwise known as Helms-Burton. As you are aware, Title 
III of Helms-Burton allows U.S. nationals to sue foreigners for 
damages in U.S. courts if those foreigners traffic in property 
confiscated by the Castro dictatorship. Now there is also a 
provision in Helms-Burton that says the President may suspend 
Title III for a period of not more than 6 months if the 
President reports in writing to the appropriate congressional 
committee at least 15 days before such suspension that it is 
necessary to the national interest of the United States and--
and I emphasize--and will expedite a transition to democracy in 
Cuba.
    Now Helms-Burton, that Title III of Helms-Burton has been 
suspended every 6 months since former President Clinton and 
former President Bush, and now President Obama have done so. 
Can you tell us how such suspensions have expedited a 
transition to democracy in Cuba?
    Secretary Clinton. Well, I think, Congressman, obviously we 
do not have democracy and freedom in Cuba. There is no doubt 
about that. But we do believe that the current regime is having 
to face the reality of its mismanagement of its economy, of its 
repressive policies. We saw the release of political prisoners, 
some of whom were imprisoned the last time I testified before 
this committee. We still see terrible abuses like the reaction 
to Mr. Zapata's mother and so much else.
    But it has been the assessment of three Presidents, as you 
rightly point out--two Democrats, one Republican--that 
continuing to suspend Title III is in the national security 
interest of the United States. It is predicated on many 
different factors, but the ultimate conclusion has been the 
same for the last 16 years.
    Mr. Rivera. So can you give an example of the second part 
of that requirement, expediting a transition to democracy? I 
understand in the national interest of the United States, but 
it doesn't say ``or.'' It says, ``and will expedite a 
transition to democracy.'' Is there any example of that 
recently?
    Secretary Clinton. Let me respond to you for the record, 
because I don't want to misspeak. But I will get you additional 
information, Congressman.
    Mr. Rivera. Thank you very much.
    Finally, with respect to the recent lifting of sanctions on 
the regime, we know that in the history of the United States we 
have seen some lifting of sanctions when President Carter 
reestablished diplomatic relations with Cuba. We saw the 
results. For example, the Mariel boat lift, when former 
President Clinton established the Track 2 People-to-People 
Contacts. We saw the results in the 1996 shoot-down of four 
American citizens. Why would we expect a different reaction now 
from the Castro regime in terms of reforms--democratic reforms 
in reaction to our lifting of sanctions if we have never seen 
it before?
    Secretary Clinton. I think, Congressman, our goal is to 
assist the people of Cuba themselves. We are not aiming our 
lifting of sanctions in any way to please the Castro regime. We 
are trying to help the people of Cuba.
    With some of the economic changes that are going on in 
Cuba--the unemployment, the laying off of hundreds of thousands 
of workers, as you know--we think maintaining a very positive 
approach to the people of Cuba, letting them know that the 
United States Government, that the American people--not just 
Cuban Americans but all Americans--support their freedom, 
support their eventual democracy we think is in their interest. 
And that is why we do it.
    Chairman Ros-Lehtinen. Thank you, Madam Secretary.
    Mr. Engel of New York.
    Mr. Engel. Thank you, Madam Chair; and welcome, Madam 
Secretary. I want to second what Congressman Higgins said about 
Buffalo. Because you now that in the Bronx, Westchester, and 
Rockland, we feel the same way about you as well.
    I am so happy you raise the 16-percent cut for State and 
USAID that passed the House last month. I am glad you said it 
would be devastating to our national security, because it would 
be. I want to emphasize that. Thank you for saying that.
    I want to also mention a few other things and ask you to 
comment on any or all of them.
    I am very pleased, as the former chair of the Western 
Hemisphere Subcommittee and now the ranking member, that the 
President is traveling to Brazil, Chile, and El Salvador. I 
think it shows the administration's commitment to the region 
that you and I have discussed many, many times. I just wanted 
to say how important I think that is as well.
    I want to talk about the Mideast peace process. I have been 
very much chagrined because for the past 2 years the 
Palestinian leadership has refused to enter into direct talks 
with Israel. They use every excuse under the sun--settlements, 
expansion of neighborhoods--and have all these preconditions. 
Meanwhile, they mount an effort to delegitimize Israel at the 
U.N. and seek support for unilateral declaration of statehood 
outside of a negotiating process. I was very pleased that the 
administration vetoed that resolution in the U.N. Security 
Council.
    Are we telling the Palestinians that this is not helpful 
and that they really potentially face a loss of aid, loss of 
support? There has got to be some penalty for their behavior.
    Finally, I want to mention an issue that when you were 
senator in New York you worked very hard on, and that was the 
Kosovo issue, which is very, very important. We worked on that 
a lot together. I would like to see Kosovo admitted to the EU 
and admitted, of course, to the U.N. But they have been 
blocked. The people there feel that if the United States 
doesn't play an active role that they really can't count on 
Europe for helping them. I would also like to eventually see 
them as a NATO member.
    What are we doing to ensure that the fragile democracy 
there--and you know they love the United States and they really 
count on us--that we are doing everything we can to push our 
European friends into integrating them fully into the EU?
    Secretary Clinton. Congressman, of course, our veto spoke 
very loudly; and we also conveyed very clear messages not only 
to Palestinians but to the region. But thank you for raising 
Kosovo, because it is unfinished business. It is unfinished 
business in Europe and for us.
    I visited early--end of last year and made it clear that 
the United States was working to elicit additional pledges of 
recognition from other nations. That continues. We are going to 
be doing everything we can do increase it.
    I have also met several times with the EU, because we think 
that the EU has to help the Kosovars make progress.
    There will be starting in a few days a conciliation process 
run by the EU between Serbia and Kosovo primarily looking at 
northern Kosovo where the Serbian population is located, 
looking for ways to try to resolve some of the issues on the 
ground. Deputy Jim Steinberg was just in Kosovo and the region 
looking for ways that we can support Kosovo. They have a ways 
to go, but we want to see Europe holding out that big carrot. 
We want them to be there with visa liberalization, with 
development assistance, with support for Kosovo to go on the 
road to membership in the EU.
    Obviously, we want to see them in the United Nations and 
maybe someday in NATO. The Kosovars have a lot to do 
themselves. They have to continue to improve their democracy. 
They have to crack down on violence and criminal elements that 
are, unfortunately, too present amongst them. They have to make 
their peace with Serbia--not selling out but working in a 
mediating way to try to resolve it so that they can enhance 
trade and commerce between the two countries. There is a lot to 
be done. But this remains a very high priority for me 
personally because of much of the work that we did together. It 
is a high priority for our Government.
    Mr. Engel. Thank you, Madam Secretary.
    I will turn back my 17 minutes to the chair.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Kelly, vice chair of the Subcommittee on Asia and the 
Pacific.
    Mr. Kelly. Thank you, Madam Chairman.
    Madam Secretary, thanks for being here. After watching you 
and knowing what you have done lately, you talk about marketing 
and the American brand and also reaching frequency, I think I 
am going to suggest that you be the poster girl for Red Bull or 
the Fubar Energy Drink.
    My question, though, goes to this--and I think your 
husband's stepfather was a Buick dealer. I am a Chevrolet 
dealer. We are always looking for a return in investment. 
Certainly, in the State of the Union Address the President 
talked about investments, investments, investments. And we know 
that we have good investments and bad investments.
    My question then, based on what we have done for Palestine, 
we have spent about $2.5 billion in the last 5 years and again 
now this year we are looking for another $400 million to help 
them out in their cause. But this is a group that, for some 
reason, and I don't understand, people who loudly and publicly 
criticize us and then come quietly back and say, Well, but we 
still need your help. At what point do we decide this was a 
good investment or a bad investment? And certainly when we look 
at Israel, who is fighting so hard, and see Palestine, who is 
working so hard just for the absolute opposite, at what point 
do we say to them, we can't continue to fund you. We can't 
reward bad behavior.
    And I wonder about this. Because as we go through these 
budget cuts--and they are real. And my colleagues on the other 
side decry the fact that this H.R. 1 is going to do so much to 
destabilize and we just can't afford to make these cuts. My 
question is, when do we decide which investments are good 
investments and at what point do we cut off and penalize bad 
behavior?
    Secretary Clinton. Congressman, I think that is a really 
important question, and it is one I ask myself practically 
every day.
    Let's take the example that you have put forth.
    I would argue strongly that the need to continue to support 
the Palestinians and their state-building is in Americans' 
interest. Why is that? Because the Palestinian Authority, which 
has control over the West Bank, is demonstrating that it can 
control extremists, that it can cooperate to protect Israel, 
that it can give a better economic life to their people. It 
stands in stark contrast to Hamas, which has done nothing but 
increase the misery of the Palestinian people in Gaza.
    It is often frustrating for me--and I think you pick up on 
that--to deal with any country or any group of people that see 
the world differently than we do. Sometimes I do try to put 
myself into their shoes because it helps to figure out, okay, 
so why do they see what I see so opposite of how I interpret 
it.
    If you look at the Palestinians, they believe that they had 
close to a deal with former Prime Minister Olmert. Israeli 
politics change, just like our politics changes. A new 
administration comes in, a new prime minister, a new coalition, 
and then they have to start all over again. So they get a 
little put out. But the Israelis rightly say, Look, we're a new 
government. We want to start differently.
    So there is always some kind of explanation. Whether you 
believe it or whether you credit it is certainly up to the 
individual who is assessing it. But, from my perspective, when 
you look at the region right now, where are the secular 
regimes, where are the regimes that are actually producing 
benefits for their people. The Palestinian Authority is doing 
that.
    Between President Abbas and Prime Minister Fayyad, no 
matter how frustrated one can get with them, what they have 
done really speaks for itself, because you don't see 
demonstrations. Why? Because life is actually improving. Why is 
it improving? Because below the headlines they have a very 
positive arrangement with Israel where they are working 
together.
    So it is immensely complicated, and we do have to ask 
ourselves are we getting the best return on the investment we 
are making. And sometimes it takes a little explanation because 
it is not so self-evident. But when we look at that region and 
we are competing against Iran with Hezbollah, we are competing 
against Iran's influence in Syria, we are competing against 
extremist Islamic elements that could move into the vacuum, I 
think it is in America's interest to continue to support what 
has turned out to be an effective regime to promote benefits 
for people. Whether that pays off down the road or not is 
something we are going to have to try to keep influencing in 
every way we can.
    Mr. Kelly. Well, I appreciate that. I know that as we go 
forward in these budget cuts--and it is really a very serious 
thing--and you said about penny wise and pound foolish. There 
is also another axiom out there: Measure twice, cut once. So I 
think we will pursue that. But thank you so much for your time.
    I do yield back the rest of my time.
    Chairman Ros-Lehtinen. Thank you.
    Madam Secretary, you are so generous with your time. We 
only have three more questioners. If you keep them brief, we 
will get to all three of them. Mr. Connolly and then we will 
have Mr. Marino and Ms. Buerkle.
    Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chairman.
    Welcome again, Secretary Clinton. I have to tell you I have 
known nine Secretaries of States and I can't remember a 
performance as impressive as yours. Your stamina, breadth of 
knowledge, and your experience make all of us proud. Thank you 
for serving.
    I am going to ask a series of quick questions without 
speeches.
    The Muslim Brotherhood sort of reappeared in the vacuum in 
Egypt. Do we consider that the Muslim Brotherhood has in fact 
evolved into a more moderate, democratic-oriented organization 
with a contribution to make both in Egypt and other places in 
the Middle East?
    Secretary Clinton. Congressman, we are watching that 
closely. We are trying to suggest certain guidelines that 
should be used for determining whether a political party or any 
organization should be included in elections, included in 
government. And the jury is out.
    Mr. Connolly. Thank you.
    Some recent speculation about the possibility of a 
rapprochement between Hamas and the Palestinian Authority. A 
lot of young demonstrators both in the West Bank and in Gaza 
are encouraging just that, a time to come together and have one 
unified Palestinian voice and government. Does the United 
States welcome such a rapprochement and are there preconditions 
from our point of view that would have to be met before we 
would recognize such a unified government?
    Secretary Clinton. Absolutely there are preconditions. It 
goes in part to Congressman Kelly's prior question.
    We have made it very clear that if Hamas does not renounce 
violence, does not recognize Israel's right to exist, does not 
agree to support previous agreements that have been entered 
into, we could not in any way support any government it was a 
part of or any rapprochement that took place.
    Mr. Connolly. Thank you.
    You talked about the 150 Function, and earlier, many hours 
ago, you talked about something like a 10:1 ratio of advantage 
for every dollar we invest. I think you said for every $4, we 
get $45 back, roughly a 10 or more, 11 to 1 ratio. Of course, I 
completely agree.
    Our friend Mr. Kelly unfortunately has left, but he talked 
about the cuts being real and he talked about investments as a 
businessman, correctly so. But surely the foreign assistance we 
provide relative to our defense budget or lots of other 
expenditures is an investment that over time has proved itself. 
And I was really struck by something you said. You don't want 
to be empty-handed in the exercise of diplomacy when we really 
need it. And we can't envision that in Congress, and surely 
that argues for protecting that investment and giving you some 
flexibility with respect to it.
    Would you care to elaborate?
    Secretary Clinton. Congressman, first, it would be my 
fervent hope that USAID and State Department would be viewed as 
national security. Having served in Congress, I know how often 
it occurs that we say, Well, we are going to cut discretionary 
spending except for defense, or except for national security, 
which is defined as being only defense. And in today's world 
that is just no longer the case.
    What we do side by side with the military, coming in after 
the military, staying after they go, trying to prevent 
conflicts and everything else that is on our plate, with far 
fewer resources, if I might add, than the military, requires us 
to begin to think more broadly about what we mean by national 
security; and certainly from our perspective we do think that 
we can justify what we spend.
    We have undertaken an effort to cut back on areas that we 
don't think are important to America's national security 
anymore, and we are going to keep doing that, and we are going 
to keep trying to get smarter.
    At the very beginning of the hearing, Ranking Member Berman 
referred to contractors. We do so much better than being 
charged so much by contractors to deliver services that then we 
have to keep reinvesting every time there is a crisis by 
bringing a lot of that in house and paying for it, which is 
something I have tried to do over the last 2 years, which will 
save us money.
    So in many different ways of looking at how we are cost-
effective, I think we are on the right track. I am well aware 
and I am one who believes that we have to be strong 
economically at home. But I also believe that part of being 
strong economically at home is giving us the tools we need to 
project our leadership abroad. Because it has a kind of 
boomerang effect. If we are not looking strong abroad, that 
undermines how we look and how we are treated at home. So I 
think we have to look at this from a broader perspective.
    Mr. Connolly. I thank you, and I yield back my time.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Marino of Pennsylvania.
    Mr. Marino. Thank you, Madam Chair.
    Madam Secretary, it is a pleasure to meet you. I thank you 
for your patience and your service. I also thank you for your 
passion. I understand that. By the way, one of the counties in 
my district is Lackawanna.
    I have listened very intently with what you had to say, and 
I understand the conviction and the passion. I really do. I 
understand the geopolitics that are involved here. But I want 
to bring this home a little bit and bring it back to our side 
of the ocean, if I may.
    My constituents of the Tenth Pennsylvania Congressional 
District have lost their jobs or will be losing their jobs. 
Many are worried about whether they will keep their jobs, with 
unemployment at still over 9 percent and a debt of $14.2 
trillion. These same constituents not only are losing their 
jobs but they are losing their homes and their businesses. I 
have had grown men tear up in front of me because they cannot 
support their families, send their children to college, or even 
buy them new clothes.
    I have known that you as a senator prided yourself on 
meeting the needs of your constituents. How can we expect our 
constituents--that the United States must send their tax 
dollars overseas, that it is in the best interest of these 
countries, and the U.S. in the long run, to continue to send 
our money to other countries, even those who hate us, while my 
constituents are hurting and yet we cannot use these funds and 
others to create jobs by putting their tax dollars back into 
their pockets and eliminate the debt. What say you to this as a 
compassionate person?
    Secretary Clinton. Well, Congressman, I know your district. 
I thank you for raising in such moving terms what the people of 
the Tenth District are going through. I have been visiting your 
district my entire life, so I know that these are good people, 
these are hardworking people, and they deserve better. And I do 
believe that we need an economic policy here at home that does 
generate new jobs, new investment, new economic opportunity for 
people who, like your constituents, are willing to work hard 
for the dollars that they bring home.
    I also know that you have a very patriotic district and you 
have a high percentage of people who have served in our 
military and who have answered the call of service time and 
time again and that what my job first and foremost to do is to 
do everything I can to provide security for the American 
people.
    It is not an easy choice. And I wish that we could say, 
Well, let's just put the world on hold for 5 years while we 
rebuild our economy. The world has never been able to be put on 
hold, but especially today. Things are moving much too quickly. 
And the threats we face, the challenges we confront are not 
going to go away. And they pose direct threats to markets where 
goods that we can make in the Tenth District in Pennsylvania 
can be sold. They pose direct threats to the security of our 
people because of the launching of terrorist attacks from 
ungoverned territories that, unfortunately, can become havens 
for terrorist groups with the instigation and support of al-
Qaeda and others. They pose health threats as diseases move 
further north and pose real concerns to us.
    So the list is long about costs that, unfortunately, will 
come back to bite us if we are not trying to exercise 
preventive diplomacy. And so I do know that there have to be 
tradeoffs and difficult decisions. My only plea today is that 
many people when they are asked around the country--this was 
true with my own constituents who I served for 8 years in New 
York--when you ask them, how much money do we give in foreign 
aid, they think it is like 15 or 20 percent of the budget.
    And so to try to help Americans understand, it is a small 
part of a budget that has to be reined in. We cannot overlook 
the hurt the people are experiencing today. So what we have to 
be is smart about how we do this, especially now, when, 
frankly, we face an unpredictable future that could undermine 
the security and well-being of our people across America.
    Mr. Marino. I understand it, and thank you. But you have 
been faced with a constituent standing before you saying, my 
grandmother used to say, Let's take care of our own--and now.
    Again, that is not a question. I thank you. Get some rest.
    I yield my time.
    Chairman Ros-Lehtinen. Thank you.
    Ms. Buerkle of New York.
    Ms. Buerkle. Thank you, Madam Chairman; and thank you, 
Secretary Clinton, for your perseverance here this morning and 
willingness to answer all of our questions.
    I am going to take my issue back across the seas as well 
and to my district. It is an intensely personal issue for the 
constituents. I represent New York's 25th Congressional 
District. We are the home to Syracuse University. I know you 
are familiar with that area of the State.
    On December 21, 1988, 259 people onboard a Pan Am flight 
bound to New York died in a fiery blast. The product of that 
bomb was planted by a Libyan terrorist. The Pan Am flight 
crashed into a small town in Scotland, Lockerbie, and took, 
along with those on the plane, 11 folks who were on the ground.
    On that plane were 38 students from Syracuse University 
returning home for their Christmas break. Their families will 
never forget that day and the dramatic change that it made in 
their life. For many of those families, they will not be able 
to move forward. They will not get closure until the people 
responsible for that flight and that bomb are held accountable.
    In light of the information that we have gotten over the 
past several weeks, it has now become more apparent--we knew, 
but it is become more apparent to us--what happened on that 
plane and who caused that crash. So I am asking you this 
morning, what is the administration doing to gather evidence to 
build a case against Qadhafi? And when they do, will they 
prosecute him?
    Lastly, what must we do to encourage this? Because for my 
district, for many of the families affected, they cannot go on 
until he is held accountable for his actions.
    Thank you.
    Secretary Clinton. Congresswoman, thank you.
    As you know, I know your district well and had many 
experiences with the families of the flight that was clearly 
the subject of a terrorist bombing. I was given a letter before 
coming out here, thanks to the chairwoman, that asked very 
specific questions about how we could gather evidence and put 
together a case against Qadhafi and all those with whom he 
might have conspired in setting in motion the chain of events 
that led to the explosion over Lockerbie. We will follow up on 
that.
    Much of the activity that is asked for in the letter would 
have to be done by our law enforcement agencies, but I will 
certainly contact after this hearing FBI Director Mueller and 
Attorney General Holder and others to see how we can move on 
that. Because there have been statements made in the last days 
by what are now former members of the Libyan Government 
fingering Qadhafi, making it clear that the order came from the 
very top, I think we do need to move expeditiously.
    In the Security Council resolution we have a referral to 
the International Criminal Court. That would certainly be one 
of the many counts that would be put against him if he ever is 
captured alive and turned over for justice proceedings.
    So we are going to continue to pursue this. This is a 
matter of great personal importance to me, because I did have 
the privilege of representing Syracuse, and I know that the 
pain and the feeling that he never was held accountable is so 
palpable and it is why so many of us were outraged by the 
release of Megrahi and protested vociferously to the British 
and Scottish Governments. To this British Government's credit, 
a report has been put forth giving us more information about 
what went on behind the scenes. But there is a lot that we 
still need to do, and this letter is a good list of beginning 
efforts that need to be undertaken.
    Ms. Buerkle. Thank you. And I speak, I am sure, on behalf 
of the families of those victims that we really need to act 
expeditiously and to bring this man to justice. Thank you very 
much.
    I yield back.
    Chairman Ros-Lehtinen. Thank you so much.
    Madam Secretary, you are a wonder woman. Thank you so very 
much for the generosity of your time and your kindness in 
allowing all of our members to ask a question.
    The committee is now adjourned.
    We welcome you back soon. Thank you, Madam Secretary.
    [Whereupon, at 1:37 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Connolly SFR deg.__

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Be
                               rman 
                               Addendum deg.
                               __________

Material submitted for the record by the Honorable Howard L. Berman, a 
        Representative in Congress from the State of California

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>Berman--Letter deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>QFRs--Ros-Lehtinen deg.
                               __________

  Questions Submitted for the Record to the Honorable Hillary Rodham 
Clinton, Secretary of State, U.S. Department of State, by the Honorable 
  Ileana Ros-Lehtinen, a Representative in Congress from the State of 
          Florida, and chairman, Committee on Foreign Affairs

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  
  
  
--------
Note: Not all responses were received prior to printing. The responses 
received follow this page.

                               <greek-l>QFRs & Responses--Ros-Lehtinen deg.
                               __________

Written Responses from the Honorable Hillary Rodham Clinton, Secretary 
  of State, U.S. Department of State, to Questions Submitted for the 
   Record by the Honorable Ileana Ros-Lehtinen, a Representative in 
Congress from the State of Florida, and chairman, Committee on Foreign 
                                Affairs

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>QFRs--Berman deg.
                               __________

Written Responses from the Honorable Hillary Rodham Clinton, Secretary 
  of State, U.S. Department of State, to Questions Submitted for the 
Record by the Honorable Howard L. Berman, a Representative in Congress 
                      from the State of California

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>QFRs--Rivera deg.
                               __________

Written Responses from the Honorable Hillary Rodham Clinton, Secretary 
  of State, U.S. Department of State, to Questions Submitted for the 
Record by the Honorable David Rivera, a Representative in Congress from 
                          the State of Florida

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>QFRs--Meeks deg.

 Written Response from the Honorable Hillary Rodham Clinton, Secretary 
   of State, U.S. Department of State, to Question Submitted for the 
Record by the Honorable Gregory W. Meeks, a Representative in Congress 
                       from the State of New York

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>QFRs--Duncan deg.
                               __________

 Written Response from the Honorable Hillary Rodham Clinton, Secretary 
   of State, U.S. Department of State, to Question Submitted for the 
Record by the Honorable Jeff Duncan, a Representative in Congress from 
                      the State of South Carolina

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>QFRs--Carnahan deg.
                               __________

Written Responses from the Honorable Hillary Rodham Clinton, Secretary 
  of State, U.S. Department of State, to Questions Submitted for the 
  Record by the Honorable Russ Carnahan, a Representative in Congress 
                       from the State of Missouri

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>QFRs--Cicilline deg.
                               __________

Written Responses from the Honorable Hillary Rodham Clinton, Secretary 
  of State, U.S. Department of State, to Questions Submitted for the 
  Record by the Honorable Russ Carnahan, a Representative in Congress 
                       from the State of Missouri

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>QFRs--Burton deg.
                               __________

  Questions Submitted for the Record to the Honorable Hillary Rodham 
Clinton, Secretary of State, U.S. Department of State, by the Honorable 
   Dan Burton, a Representative in Congress from the State of Indiana

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  
  
  
--------
Note: Responses to these questions were not received prior to printing.
                               <greek-l>QFRs--Connolly deg.
                               __________

  Questions Submitted for the Record to the Honorable Hillary Rodham 
Clinton, Secretary of State, U.S. Department of State, by the Honorable 
Gerald E. Connolly, a Representative in Congress from the Commonwealth 
                              of Virginia

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  
  
  
--------
Note: Responses to these questions were not received prior to printing.
                               <greek-l>QFRs--Royce deg.

  Questions Submitted for the Record to the Honorable Hillary Rodham 
Clinton, Secretary of State, U.S. Department of State, by the Honorable 
    Edward R. Royce, a Representative in Congress from the State of 
                               California

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  
  
  
--------
Note: Responses to these questions were not received prior to printing.
                               <greek-l>QFRs--Bass deg._

  Questions Submitted for the Record to the Honorable Hillary Rodham 
Clinton, Secretary of State, U.S. Department of State, by the Honorable 
 Karen Bass, a Representative in Congress from the State of California

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  
  
  
--------
Note: Responses to these questions were not received prior to printing.
                               <greek-l>QFRs-- deg._

Questions Submitted for the Record to the Honorable Hillary Rodham 
Clinton, Secretary of State, U.S. Department of State, by the Honorable 
Michael T. McCaul, a Representative in Congress from the State of Texas

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  
  
  
--------
Note: Responses to these questions were not received prior to printing.

                               <greek-l>QFRs-- deg._

  Questions Submitted for the Record to the Honorable Hillary Rodham 
Clinton, Secretary of State, U.S. Department of State, by the Honorable 
 Gus Bilirakis, a Representative in Congress from the State of Florida

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  
  
  
--------
Note: Responses to these questions were not received prior to printing.
                               <greek-l>QF

                               Rs--Kelly deg.

  Questions Submitted for the Record to the Honorable Hillary Rodham 
Clinton, Secretary of State, U.S. Department of State, by the Honorable 
   Mike Kelly, a Representative in Congress from the Commonwealth of 
                              Pennsylvania

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  
  
  
--------
Note: Responses to these questions were not received prior to printing.

                               <greek-l>QFRs--Griffin deg.
                               __________

  Questions Submitted for the Record to the Honorable Hillary Rodham 
Clinton, Secretary of State, U.S. Department of State, by the Honorable 
  Tim Griffin, a Representative in Congress from the State of Arkansas

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  
  
  
--------
Note: Responses to these questions were not received prior to printing.

                               <greek-l>QFRs--Ellmers deg.
                               __________
  Questions Submitted for the Record to the Honorable Hillary Rodham 
Clinton, Secretary of State, U.S. Department of State, by the Honorable 
  Renee Ellmers, a Representative in Congress from the State of North 
                                Carolina

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  
  
  
--------
Note: Responses to these questions were not received prior to printing.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
